<html>
<title> - NOMINATIONS TO THE DEPARTMENT OF TRANSPORTATION AND THE DEPARTMENT OF COMMERCE</title>
<body><pre>[Senate Hearing 109-546]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-546
 
                   NOMINATIONS TO THE DEPARTMENT OF 
             TRANSPORTATION AND THE DEPARTMENT OF COMMERCE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 7, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

28-476 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 7, 2006.................................     1
Statement of Senator Allen.......................................     5
Statement of Senator Inouye......................................     2
    Prepared statement...........................................     2
Statement of Senator Lott........................................    38
Statement of Senator Pryor.......................................    13
Statement of Senator Stevens.....................................     1

                               Witnesses

Barrett, Admiral Thomas J., Nominee to be Administrator, Pipeline 
  and Hazardous Materials Safety Administration, Department of 
  Transportation.................................................    15
    Prepared statement...........................................    16
    Biographical information.....................................    17
Bennett, Hon. Robert F., U.S. Senator from Utah..................     3
Cresanti, Robert, Nominee to be Under Secretary of Commerce for 
  Technology, Department of Commerce.............................     6
    Prepared statement...........................................     8
    Biographical information.....................................     9
Duvall, Tyler D., Nominee to be Assistant Secretary of 
  Transportation for Policy, Department of Transportation........    28
    Prepared statement...........................................    29
    Biographical information.....................................    30
Karr, Roger Shane, Nominee to be Assistant Secretary of 
  Transportation for Governmental Affairs, Department of 
  Transportation.................................................    32
    Prepared statement...........................................    33
    Biographical information.....................................    33
Murkowski, Hon. Lisa, U.S. Senator from Alaska...................     4
Nason, Nicole R., Nominee to be Administrator, National Highway 
  Traffic Safety Administration, Department of Transportation....    24
    Prepared statement...........................................    25
    Biographical information.....................................    26
Sanborn, David C., Nominee to be Administrator, Maritime 
  Administration, Department of Transportation...................    20
    Prepared statement...........................................    21
    Biographical information.....................................    22

                                Appendix

Claybrook, Joan, President, Public Citizen, prepared statement...    43
Coviello, Jr., Arthur W., President and CEO, RSA Security, 
  letter, dated February 7, 2006 to Hon. Ted Stevens and Hon. 
  Daniel K. Inouye...............................................    45
Hyde, Henry J., Chairman, House Committee on International 
  Relations, letter, dated February 6, 2006 to Hon. Ted Stevens..    44
Lundberg, Jr., Rolf Th., Senior Vice President, Congressional and 
  Public Affairs, Chamber of Commerce, letter, dated January 25, 
  2006 to Hon. Daniel K. Inouye..................................    44
Response to written questions submitted by Hon. Daniel K. Inouye 
  to Robert Cresanti.............................................    45
Response to written questions submitted to Tyler D. Duvall by:
    Hon. Daniel K. Inouye........................................    52
    Hon. John F. Kerry...........................................    64
    Hon. Frank R. Lautenberg.....................................    65
    Hon. Mark Pryor..............................................    63
Response to written questions submitted to Nicole R. Nason by:
    Hon. Barbara Boxer...........................................    54
    Hon. Jim DeMint..............................................    50
    Hon. Daniel K. Inouye........................................    54
    Hon. Frank R. Lautenberg.....................................    55
    Hon. John D. Rockefeller.....................................    57
Response to written questions submitted to David C. Sanborn by:
    Hon. Maria Cantwell..........................................    53
    Hon. Daniel K. Inouye........................................    53


 NOMINATIONS TO THE DEPARTMENT OF TRANSPORTATION AND THE DEPARTMENT OF 
                                COMMERCE

                              ----------                              


                       TUESDAY, FEBRUARY 7, 2006

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
SD-562, Dirksen Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good afternoon. The Committee will hear from 
five of the President's nominees for the Department of 
Transportation and one nominee for the Department of Commerce.
    Robert Cresanti has been nominated to be Under Secretary of 
Commerce for Technology; and Senator Bennett, for whom Mr. 
Cresanti formerly worked, will introduce him.
    And Thomas Barrett has been nominated to be Administrator 
of the Pipeline and Hazardous Materials Safety Administration 
of the Department of Transportation. Admiral Barrett has had a 
distinguished career in the U.S. Coast Guard, including 
significant time served in our home State of Alaska. And we 
thank him for his service to the country. Senator Murkowski 
will introduce the admiral this afternoon.
    Tyler Duvall has been nominated to be Assistant Secretary 
of Transportation Policy for the Department of Transportation.
    Nicole Nason has been nominated to be Administrator for the 
National Highway Traffic Safety Administration within the 
Department of Transportation.
    David Sanborn has been nominated to be the Administrator 
for the Maritime Administration within the Department of 
Transportation. I understand that Senator Allen will introduce 
Mr. Duvall, Ms. Nason, and Mr. Sanborn.
    And, finally, Shane Karr has been nominated to be Assistant 
Secretary for Governmental Affairs for the Department of 
Transportation.
    Each of the nominees has family in attendance today, and 
it's our request that the nominees will take a moment before 
they come to the table to introduce their respective family 
members to the Committee.
    And, before proceeding, I would note that Public Citizen's 
Joan Claybrook requested to testify today concerning Ms. 
Nason's nomination. We've asked Ms. Claybrook to submit her 
written testimony, which we will review and consider. We have 
not held hearings from outside witnesses on nominations of this 
type.
    The Chairman. In addition, Senator Inouye has submitted 
pre-hearing questions to Ms. Nason, Mr. Duvall, and Mr. Karr, 
the answers to which the Committee will also review.
    I do thank Senators Murkowski and Bennett and Allen for 
their support for these nominees. And I will say that we'll 
have a committee markup of these nominations at a later time. 
There are several members of the Committee who are out of town 
for a funeral ceremony, and we will not hold that today, but it 
will be sometime--we'll announce it in the future.
    Senator Inouye, do you have comments?

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. First, thank you very much, Mr. Chairman, 
for setting the markup for these nominees.
    I would like to commend Secretary Mineta for sending over 
such a fine crew. I think you'll make a good team for him. And 
I would like to welcome all of you, the nominees, and thank you 
for your commitment to service for our country.
    Thank you very much.
    May I submit my statement?
    The Chairman. Yes. The Senator's further comments will be 
submitted for the record.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    I would like to welcome each of the nominees and thank them for 
their commitment to Federal service.
    Five of the nominees have been tapped to serve in various functions 
at the Department of Transportation. I have great respect for my friend 
Secretary Norman Mineta and his prerogative to build his team as he 
sees fit. This is an opportunity for each of you to tell us why you 
believe you are best-suited to serve in these critical roles.
    With last year's passage of the Highway Bill and the adoption of 
the Maritime Administration authorization, the nominees have been given 
very clear directives from Congress. I know that the Administration, 
and some of the nominees, did not agree with our positions in their 
previous capacities. But now that those directives are the law, I want 
to know what the nominees will do to ensure that these laws are 
actively implemented and enforced.
    Turning to the Commerce Department nominee, Mr. Cresanti, I note 
that we are considering his nomination to the Technology Administration 
just one week after the President made comprehensive technology policy 
a key topic in his State of the Union address.
    I have a great interest in this area and the issue of 
competitiveness. As we look at innovative ways to remain competitive 
and advance new research and development, I urge the nominee and the 
Department to take advantage of existing policies and programs that 
have a proven track record.

    The Chairman. Senator Bennett, would you like to make your 
comments concerning Robert Cresanti, please?

             STATEMENT OF HON. ROBERT F. BENNETT, 
                     U.S. SENATOR FROM UTAH

    Senator Bennett. Thank you very much, Mr. Chairman.
    I'm honored and delighted to introduce Robert Cresanti to 
the Committee. I'll let him introduce his wife and his two 
daughters.
    Robert came to work for me when I was first elected. He had 
no connection whatsoever with Utah, which was a little unusual 
in the people that we interviewed, because we tried to get 
people who had some tie to Utah. But he had a background that 
fit the responsibilities that I was assuming as a member of the 
Banking Committee. And he focused on those issues with great 
expertise and great energy. I would point out how time passes. 
He was single at the time. And so, we worked him pretty hard, 
and late hours, but somehow he managed to slip in a courtship 
into his activity, and now he's here with a wife and two 
children.
    While we were on the Banking Committee, after the 
Republicans took control and--I was made chairman of the 
Subcommittee on Financial Services and Technology, and we began 
to hold a hearing--series of hearings on technology. Technology 
was a new area for Robert. And, as a staff man, he had to bring 
himself up to speed on those particular activities. I said to 
him, ``I hear something about the millennium challenge, the 
change of computers when we go from 1999 to 2000. Maybe we 
ought to hold a hearing on that subject to see if there's 
anything to it.'' He organized the hearing. Senator Dodd, as 
the Ranking Member of the Subcommittee, was there, and, at the 
end of the subcommittee hearing, he said to me, ``Mr. Chairman, 
we need another hearing. This is scary stuff.'' And out of the 
series of hearings that we held in the Banking Committee, which 
Robert managed, came the creation of the Senate Special 
Committee on the Year 2000 Technology Problem, with myself as 
chairman and Senator Dodd as the vice chairman. And we started 
looking around for a high-powered staff director to run that 
committee, and it pretty soon became pretty clear we already 
had one. Robert Cresanti was there and available, and he became 
the staff director of that committee.
    Senator Dodd said to me, ``We're in a non-win situation. If 
everything goes well, they'll say there was no problem and we 
wasted everybody's money; and if it doesn't go well, they'll 
say it was all our fault.'' But the series of hearings that 
were set up for the Year-2000 technology problem were, I think, 
the Senate at its very best. They were nonpartisan, they were 
in-depth. Robert reached out for the best possible talent. And 
we had a series of hearings that I think contributed 
significantly to the fact that the country did come through the 
2000 computer time change without any difficulties.
    He then did, as many of our staffers do when they've 
established a reputation for themselves, he was in great demand 
downtown, and he left Congressional service to go with trade 
associations downtown. But he had made the transition, if you 
will, from a young, inexperienced, but anxious, staff aide 
focusing on financial problems to a very experienced, carefully 
trained expert on technology. And he has established his 
reputation in that regard in Washington.
    And when he told me that he had been approached to become 
an Under Secretary for Commerce, focusing on technology, I 
said, ``I'm glad for the American people that you'd be willing 
to do this, but are you willing to take the pay cut?'' And he 
said, ``Yes. It's a pretty significant pay cut, but I want to 
get back in the action.''
    So, I can recommend him from more than a dozen years of 
very direct personal experience, and assure the Committee that 
he comes very well prepared, very well trained, and, just as 
important, if not more so, anxious to return to public service 
and make available to the American people the skills that he 
has accumulated over the past dozen years.
    I recommend him to the Committee without hesitation.
    The Chairman. Thank you very much.
    Senator Murkowski, do you wish to make comments concerning 
Admiral Barrett?

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    I am pleased to be before the Committee this afternoon to 
introduce a fellow Alaskan and a friend, Vice Admiral Thomas 
Barrett, the President's nominee to serve as the Administrator 
for Pipeline and Hazardous Materials Safety Administration at 
the Department of Transportation.
    I've had the privilege of knowing the admiral and his wife 
since my service in the Alaska State Legislature. He is one of 
those rare individuals that comes to us through the military--
and I shouldn't say ``rare,'' because I think we have an 
opportunity up north, as you know, Mr. Chairman, to get some of 
our--of the military's finest serving us up north, but when the 
admiral was in Juneau serving the Coast Guard in that region, I 
think it is fair to say that we knew we were served by one of 
the finest--and not just from the perspective of the Coast 
Guard, but an individual who became involved in the community. 
His wife was a teacher, working with the children. We had an 
opportunity for the social events and having a Sunday morning 
brunch talking about education concerns in the State of Alaska. 
This gentleman is one who not only has his focus on the job 
before him, but in providing a true quality of life for people, 
wherever his assignment.
    The admiral graduated from Coast Guard Officer Candidate 
School. He was commissioned in 1969. He deployed to Vietnam, 
earned a law degree from George Washington University, a 
graduate of the Army War College. He was in the--he was chief 
counsel and project staff for the Outer Continental Shelf 
Safety Staff, Office of Marine Safety and Environmental 
Protection. He had several tours in Alaska before moving up to 
the post of commanding officer of the Coast Guard Support 
Center, home to nine commands on Kodiak Island, the--which, as 
you know, is the largest operational Coast Guard base in the 
world.
    When we look at the position that Admiral Barrett has been 
nominated for, when it comes to the area of safety, when it 
comes to the area of leadership, I don't think that the 
President could have selected a finer individual.
    I'm pleased to recommend him to the Committee, and know 
that he will continue to serve this country well.
    Thank you.
    The Chairman. Thank you very much.
    Let me then call Mr. Cresanti to come forward, please.
    And the Senators may stay, if you wish, but we'd be happy 
to excuse you.
    Senator Bennett. Thank you very much. I do have some other 
pressing issues.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Mr. Cresanti, would you hold off for just a 
minute?
    Mr. Sanborn, Ms. Nason, and Mr. Duvall, before they're 
called to the table----
    Senator Allen.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman. It's good to see so 
many people who are residents of Virginia here, Mr. Cresanti 
and Mr. Barrett, but I'm going to specifically introduce three 
nominees, who are residents of Virginia, to the Committee. The 
three fellow Virginians are all being nominated for posts 
within the Department of Transportation: Nicole Nason, Tyler 
Duvall, and David Sanborn.
    Let me, first, start with Nicole. She was born in New York. 
If you could raise your hands, oh, well, here you are. I was 
wondering what happened to you.
    [Laughter.]
    Senator Allen. Nicole was born in New York, but, wisely, 
now calls Virginia home. She was raised in a safety household. 
As a young girl, she watched as her father ran the traffic 
division in Suffolk County, New York. She was taught, early and 
often, the value of safety through the strong example set by 
her father. I know she'll carry these values with her as she 
prepares to assume a new position within the Department of 
Transportation in the National Highway Traffic Safety 
Administration.
    During her time with the Department of Transportation, she 
has worked tirelessly to promote a close working relationship 
between the Administration and Congress. I think that will be 
invaluable for the National Highway Traffic Safety 
Administration, as they're slated to work with this committee, 
Mr. Chairman, on a number of important issues, like reform of 
vehicle fuel efficiency standards and combating impaired 
driving.
    Mr. Chairman, I'm also pleased to introduce a constituent 
and fellow Virginian, Tyler Duvall. Tyler is nominated by the 
President to serve as Assistant Secretary of Transportation for 
Policy at the Department of Transportation. I know Tyler comes 
from a strong family. His uncle was captain of the University 
of Virginia basketball team and was a roommate of mine for a 
few years when we were in law school together. His stepmother, 
Donna, is a longtime friend. In the days that we were doing 
typing, she typed up my term papers and so forth.
    [Laughter.]
    Senator Allen. But I know that Tyler, in his own right, is 
a product of outstanding Virginia schools, Washington and Lee 
University and the University of Virginia School of Law. Tyler 
has extensive experience advising the Secretary of 
Transportation on a broad range of transportation policy and 
legal issues related to surface and maritime transportation. I 
am confident, Mr. Chairman and Senator Inouye, that Tyler will 
be a top-quality Assistant Secretary for Transportation Policy.
    Finally, I would like to introduce another fine Virginian, 
David Sanborn of Smithfield, Virginia, who the President 
nominated to serve as Administrator of the Maritime 
Administration. He is a graduate of the Merchant Marine 
Academy. David has impressive credentials and a wealth of 
experience, both domestically and internationally, but, most 
importantly, has a sincere desire and vision to promote our 
Nation's ports and shipping industry. If you look through his 
record--most recently, director of ship operations for Dubai 
Ports International, or DP World, he was responsible for port 
infrastructure, expansion, and efficiency while developing new 
lines of business. He has worked for CMA-CGM America, which is 
a company based out of Norfolk, Virginia, where he controlled 
cargo logistics and demonstrated his ability to seamlessly 
coordinate shipping with rail and truck operations. This is a 
multimillion-dollar budget that he has to oversee there, staff 
of hundreds, redesigning organizations. All of these are 
matters that he is familiar with. And David Sanborn will 
undoubtedly ensure his success as Administrator.
    I look forward to this committee working with him and all 
three of these nominees for swift confirmation so they can get 
to work with full portfolio for the American people.
    I thank you, Mr. Chairman. And they'll introduce all their 
family members when they testify.
    Thank you.
    The Chairman. Thank you very much, Senator.
    Well, then we will proceed with Mr. Cresanti, the nominee 
to be Under Secretary of Commerce for Technology.
    Will you please introduce your family members, Mr. 
Cresanti? If you'd come forward so we can hear a little bit, it 
would be nice.

STATEMENT OF ROBERT CRESANTI, NOMINEE TO BE UNDER SECRETARY OF 
                   COMMERCE FOR TECHNOLOGY, 
                     DEPARTMENT OF COMMERCE

    Mr. Cresanti. Thank you, Mr. Chairman, Mr. Co-Chairman, and 
Members of the Committee. Today joining me, behind me, are my 
wife, Colleen, and my daughter Kristin, in my wife's lap, my 
daughter Katja, and my parents, Sam and Christa Cresanti, who 
are seated immediately behind.
    The Chairman. Well, thank you very much. And we welcome the 
family members. So, if you'll just stay there, Mr. Cresanti, 
we're going to try to proceed as rapidly as possible. You're 
the only one for Commerce, so we're----
    Mr. Cresanti. Yes.
    The Chairman.--going to take care of you first. All right?
    Mr. Cresanti. Wonderful. Thank you, sir.
    The Chairman. Do you have a statement you wish to make?
    Mr. Cresanti. I do.
    Chairman Stevens, Co-Chairman Inouye, and Members of the 
Committee, thank you very much for the opportunity to appear 
before you here today regarding my nomination for the position 
of Under Secretary of Commerce for Technology. I am honored to 
have been nominated by the President, and I wish to thank him, 
Commerce Secretary Gutierrez, Deputy Secretary Sampson, for 
their support.
    I would also like to recognize my wife, whom you've just 
met, and my family. In my family, members of the Committee, 
public service has always been a high calling. My father served 
as a member of the United States Air Force, and later as a 
longtime dedicated civil servant in the Department of Defense. 
He instilled in me the importance of serving our country, and 
I'm, subject to your vote and to being confirmed by the 
Committee and the Senate, am excited to get an opportunity to 
join the Department of Commerce.
    My focus on technology issues matured here in the Senate 
when I worked with many of the members of the Committee and 
your staff on the Y2K problem. From my experience, I have 
learned that government can, and often must, play an 
influential role in setting the stage for the development of 
new technologies, as well as the use of existing technologies, 
to address the challenges that confront our Nation. As 
President Bush has acknowledged in his State of the Union 
Address, America's economic strength and global leadership 
depend on sustained technological progress.
    Advances in technology continue to fundamentally change 
virtually every aspect of our lives, including advances in the 
environment, public safety, national defense, education, 
healthcare, communication, transportation, financial services, 
and entertainment, among many. These innovations have also 
enhanced our economic growth, resulting in higher rates of 
investment, high-wage job growth, and the increase in 
productivity.
    The United States is second to none in the creation, and in 
the use, of technology. Our technological leadership is the 
result of lasting public and private investments in research 
and development. Sowing the seeds for innovation and unleashing 
the private sector, and, thereby, keeping the United States 
competitive in the world marketplace, is the central job of the 
Technology Administration.
    If confirmed, I would outline and help to effectuate the 
strategy to continue TA's work in paving the way for 
appropriate government support of industries' rapid advances in 
technology and technological development. I would also help 
foster an environment conducive to private-sector investment 
and innovation.
    The TA has a key role in helping to ensure a high rate of 
return on the investment for the billions of dollars invested 
by the Federal Government, taxpayer money, and in R&D. In this 
environment of constrained resources and competing priorities, 
there is a premium placed on leveraging programs and funding to 
maximize their impact on the leadership and growth of the 
American economy. If confirmed, I will use my experience in the 
technology industry to guide me in finding efficient ways to 
promote the mechanisms and to capture the data necessary to 
ensure and to measure our return on investment.
    The proposition is simple: innovation and competitiveness 
are the principal drivers for our future economic success. If 
confirmed by the Committee and the Senate, I will work to 
ensure that America remains the best place in the world for 
technology companies to do business, to innovate, to prosper, 
and to invest. I will energize the voice of the technology 
industry from the perspective of the Department of Commerce 
within the Administration. TA would serve as a one-stop shop 
for U.S. industry representatives to discuss and resolve 
critical issues that challenge their ability to thrive within 
the Administration. I know you've done a significant number of 
hearings, Mr. Chairman and Mr. Co-Chairman, on The National 
Academies' report.
    I have had the opportunity to meet with several of the 
Members of the Committee and with your staff since my 
nomination, and I deeply respect the process and will continue 
to seek opportunities to work closely with the Committee and 
its staff to plot a course for meeting the challenges to 
America's technological leadership.
    Again, I want to thank you for your consideration of my 
nomination and for giving me an opportunity to appear before 
you today. I would be happy to answer any of your questions.
    [The prepared statement and biographical information of Mr. 
Cresanti follow:]

Prepared Statement of Robert Cresanti, Nominee to be Under Secretary of 
            Commerce for Technology, Department of Commerce
    Chairman Stevens, Co-Chairman Inouye, and Members of the Committee, 
thank you for the opportunity to appear before you today regarding my 
nomination for the position of Under Secretary of Commerce for 
Technology, at the Department of Commerce's Technology Administration 
(TA). I am honored to have been nominated by President Bush and I wish 
to thank him, Commerce Secretary Gutierrez, and Deputy Secretary 
Sampson for their support.
    I would also like to recognize my wife, Colleen; my daughters, 
Katja and Kristin, of whom I am very proud; along with my parents, Sam 
and Christa Cresanti, who are seated behind me this afternoon. Without 
their love and support, I would not be here before you today.
    In my family, public service has always been a high calling. My 
father served as a member of the United States Air Force and later as a 
longtime, dedicated civil servant for the Department of Defense. He 
instilled in me the importance of serving our country. As my role 
model, he is the foundation of my deep commitment to and belief in 
public service. I spent nine years as a Congressional staffer and the 
last five years as an advocate for technology industry organizations.
    My focus on technology issues matured right here in the Senate, 
when I worked with many Members of this Committee and their staff to 
address the Year 2000 Technology Problem. From that experience, I 
learned that government can, and often must, play an influential role 
in setting the stage for the development of new technologies as well as 
the use of existing technologies to address the challenges that 
confront our Nation. In a global economy where borders continue to 
blur, it is essential for the government to have an appreciation for 
and understanding of the important role that new innovations, along 
with traditional hardware and software, play in ensuring our Nation's 
technological leadership.
    As President Bush acknowledged in his State of the Union Address, 
America's economic strength and global leadership depend on sustained 
technological progress. Advances in technology continue to 
fundamentally change virtually every aspect of our daily lives, 
including advances in public safety, national defense, education, 
health care, communication, transportation, financial services, and 
entertainment--just to name a few. These innovations have also enhanced 
our economic growth, resulting in higher rates of investment, high-wage 
job growth, and increases in productivity.
    The United States is second to none in the creation and use of 
technology. Our technological leadership is the result of lasting 
public and private investments in research and development. Sowing the 
seeds of innovation, unleashing the private sector and thereby keeping 
the United States competitive in the world marketplace is the central 
job of a Technology Administration. From information technology to 
biotechnology, to technology on the nanoscale, and all of the fields in 
between, new technologies and applications are being developed at a 
fast and furious pace. With further investment, they will lead to the 
introduction of commercial innovations in the form of new products and 
processes. If confirmed, I would outline and help effectuate the 
strategy to continue TA's work in paving the way for appropriate 
government support of industry's rapid advances in technological 
development. I would also help foster an environment conducive to 
private sector investment in innovation, which will boost our country's 
economic performance.
    For the billions of taxpayer dollars invested in research and 
development, TA has a key role in helping to ensure a high rate of 
return on investment. In this environment of constrained resources and 
competing priorities, there is a premium placed on leveraging programs 
and funding to maximize their impact on the leadership and growth of 
the American economy. If confirmed, I will use my results-oriented 
experience in the technology industry to guide me in finding efficient 
ways to promote the mechanisms and capture the data necessary to ensure 
and measure our return on investment.
    The proposition is simple: innovation and competitiveness are the 
principal drivers for our future economic success. Innovation springs 
up in all sorts of places, from the backyard garage to government labs. 
It is essential for TA to play a strong role in nurturing 
entrepreneurial startups and promoting innovative activity in high-tech 
businesses to sustain and build on our competitive capabilities in the 
global marketplace.
    If confirmed by this Committee and the Senate, I will work to 
ensure that America remains the best place in the world for technology 
companies to do business, to innovate, to prosper and to invest. I will 
energize the voice of the technology industry from the perspective of 
the Department of Commerce within the Administration. TA would serve as 
a one-stop-shop for U.S. industry representatives to discuss and 
resolve critical issues that challenge their ability to thrive, many of 
which you have already discussed in your hearings about the latest 
National Academies report titled, ``Rising Above the Gathering Storm.''
    The President has rightly stated ``the role of the government is 
not to create wealth; the role of our government is to create an 
environment in which the entrepreneur can flourish, in which minds can 
expand, [and] in which technologies can reach new frontiers.'' If 
confirmed, I pledge my support for that proposition.
    I have had the opportunity to meet several Members of the Committee 
and your staff since my nomination. I deeply respect this process and 
will continue to seek opportunities to work closely with the Committee 
to plot a course to meeting any challenges to America's technological 
leadership.
    Again, I want to thank you for your consideration of my nomination, 
and for giving me the opportunity to appear before you today. I will be 
happy to answer any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name: Robert Charles Cresanti.
    2. Position to which nominated: Under Secretary for the Technology 
Administration, Department of Commerce.
    3. Date of Nomination: November 10, 2005.
    4. Address: Residence: Information not released to the public. 
Office: BSA, 1150 18th Street, Suite 700, Washington DC.
    5. Date and Place of Birth: December 6, 1964, Wiesbaden, West 
Germany.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Colleen Patricia Cresanti, Loan Processor, the Kirney 
        Group.
        Children (daughters): Katja Maria Cresanti, age 7; Kristin 
        Marie Cresanti, age 3.

    7. List all college and graduate degrees. Provide year and school 
attended.

        General HH Arnold High School, Graduate, Wiesbaden, Germany, 
        1979-1983.
        Austin College, Sherman Texas, BA, 1983-1987.
        Baylor School of Law, Waco Texas, JD, 1988-1991.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated
    Vice President of Public Policy, Business Software Alliance, 2001-
Present; Senior Vice President and General Counsel, Information 
Technology Association of America, 2000-2001; Staff Director, Senate 
Special Committee on the Year 2000 Technology Problem, 1998-2000; Staff 
Director, Subcommittee on Financial Services and Technology, Senate 
Banking Committee, 1997-1998; Counsel (1995-1997), Legislative 
Assistant (1993-1995), Senator Robert F. Bennett; Legislative 
Assistant--Banking, Securities and Tax, 1992, Congressman Paul Gillmor; 
Staff Assistant (analyst) Banking, International Finance, 1991-1992, 
Joint Economic Committee, Congressman Armey and Senator Roth; Manager 
of Special Projects, National Association of Realtors, Realtor Computer 
Services, 1987-1988. All jobs were located in Washington, D.C..
    9. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years.
    Other than my government experience outlined in the question above, 
I have served as a U.S. delegate to the World Bank meetings on two 
occasions and as a delegate to a meeting of the European Bank of 
Reconstruction and Development meeting.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years.
    In addition to my work history provided above, during my tenure as 
General Counsel with ITAA, I served as an officer of the corporation as 
Secretary of the Board of Directors.
    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent, or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    Memberships: Texas Bar Association, 1991-present; D.C. Bar, 1992-
present; Our Lady of Lourdes Parish, 1996-present; Ex-SOBs (social 
organization of former SOB, Senate Office Building Staffers), 2002-
present. I have held no positions other than as a member with the other 
organizations listed.
    12. Have you ever been a candidate for public office? No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.
    10/21/2004, $1,000, Senator Mike Crapo; 5/14/2003, $1,000, 
Congressman Lamar Smith; 7/16/2003, $500, Senator George Allen; 10/11/
2004, $250, Congressman Richard Burr; 2/4/2002, $500, Senator Arlen 
Specter; and 4/13/2004, $500, Congressman Butch Otter.
    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    Hatton W. Sumners Scholarship (merit based) for College. National 
Honor Society Member (1984-87) and President (1986-87).
    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: None.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony.
    I have testified before Congress on two occasions. Once before the 
Senate Small Business Committee on the opportunities provided to U.S. 
small businesses by China's accession into the World Trade Organization 
(playing by the rules and safeguarding the IP rights for small U.S. 
companies) and once before the House Judiciary Committee on the impact 
of Piracy to the U.S. economy.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    I have only the standard rights and benefits from my employment 
with the Business Software Alliance. These include health insurance, 
401K and annual bonus provisions. If confirmed, I will comply with all 
requirements in my ethics agreement regarding my finances.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association, or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    All of my investments, obligations, liabilities and other 
relationships were disclosed to the ethics counsel at the Department of 
Commerce. The attached ethics agreement, should I be confirmed by the 
Committee, will guide my actions to avoid any potential conflicts of 
interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    At the BSA and the ITAA, I worked to influence a wide variety of 
legislative and executive actions related to technology, trade and 
corporate governance matters. I also worked on the staff of two House 
members and two Senators as well as three Senate Committees as outlined 
in the question on employment listed above.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    After consultation with the Department of Commerce Ethics Counsel, 
please find attached to this questionnaire a copy of the Ethics 
Agreement which I signed after working with that office. In the event 
that any questions arise I will seek counsel from that office on how to 
avoid any potential conflicts of interest. I intend to follow the 
guidance of the Department's counsels.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject to any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? No.
    2. Have you ever been investigated, arrested, charged, or held by a 
Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I have never personally been involved as a party. However, the 
trade associations for which I worked were involved in various standard 
civil cases. I was not directly involved in any of them, other than in 
my legal capacity as the General Counsel for ITAA.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? No.
                   d. relationship with the committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    Yes. If confirmed by the Senate, I will make it a priority to 
ensure that the Department protects Congressional witnesses and whistle 
blowers from reprisal.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matter of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Well, thank you very much.
    We do recall, I recall, your being with us on the problems 
of the year 2000. And we appreciate your comment about the 
Augustine Report. Have you had occasion to talk to many of the 
people involved in that study?
    Mr. Cresanti. I have not, yet, sir. I have, on--I have 
spoken to folks within the Administration, but I have not--I 
have not--I have heard some of the testimony you've had at the 
Committee, but not to exchange with the folks that have written 
the report.
    The Chairman. It's my understanding that the Department of 
Commerce will be at the forefront of the President's 
Competitiveness Initiative, which is really based on the 
Augustine Report, as I gather. Have you had any occasion to 
discuss what role that will be with the White House?
    Mr. Cresanti. I have not. I have read, in the press, the 
reports, and I have also seen, from the--some memos that have 
floated around within the technology industry, some of the 
granular details that people are hoping to come from the 
President's Initiative. But I have not had direct instruction 
from the White House, as of this point, or communication from 
them, on what role, exactly, TA will play.
    The Chairman. Well, there are three significant pieces of 
legislation that have already been introduced, or at least I 
think they've been introduced, dealing with that report and the 
initiative, so we look forward to working with you on that 
matter, among others, in terms of your role at Commerce.
    Senator Inouye?
    Mr. Cresanti. Thank you, Mr. Chairman.
    Senator Inouye. Oh, thank you very much.
    Mr. Cresanti, I know that the funding for the Under 
Secretary for Technology for FY 2006 is about $6 million--$5.9 
million, to be exact. And I notice that the budget request for 
FY 2007, next fiscal year, is $1.5 million. Why this vast 
reduction?
    Mr. Cresanti. Senator, I saw the numbers yesterday, as I 
think you probably did, as well, that the budget has been 
reduced. I've been told that the Administration is having to 
make difficult decisions with where dollars are allocated, and 
that it was in their best judgment that there needed to be a 
reduction in the amount of funding at the headquarters office 
of the policy shop at the Technology Administration. I 
understand these will be difficult cuts, both on the personnel 
that are there, as well as in our ability to do all of the 
things that we would like to do. So, I see that budget, and I 
know that it's going to be a very difficult challenge for me to 
do all of the things that we are mandated by statute to do 
under that funding.
    Senator Inouye. I ask that question because just a week 
ago, the President, as you noted, made a statement citing the 
importance of competitiveness in technology, and we must have 
investment. And so, obviously, we are surprised to see this 
terrible cut. You're not wiping out the office, are you?
    Mr. Cresanti. No, I surely hope not. It's one of the three 
areas that are essential, I think, under the Technology 
Administration, and the Office of Policy will be able to 
continue to function and meet its legislative mandates.
    The Chairman. Senator, I'm informed $136 million in the 
budget has been moved over to the Competitiveness Initiative, 
which will be centered in this Commerce area that Mr. Cresanti 
will head.
    Senator Inouye. That makes me feel better.
    Mr. Cresanti. Yes. I think that one of the key--Senators, 
one of the key initiatives that's being launched is a 24 
percent increase in basic research and science funding within 
the Department of--within NIST to some of the priorities that 
the Administration sees there.
    Senator Inouye. After the glowing introduction by Senator 
Bennett, you've got my vote.
    Mr. Cresanti. Thank you, sir.
    The Chairman. Senator Pryor?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman. And thank you, 
again, for this hearing. I think it's important.
    Mr. Cresanti, I have a couple of questions, just very 
briefly, on nanotechnology.
    Mr. Cresanti. Yes, sir.
    Senator Pryor. I think nanotechnology could potentially be 
a huge development in history and in America's economy, and we 
could put ourselves in a position of really becoming the 
dominant player in the world in nanotechnology. But also, at 
the same time, I think we're at a crossroads with 
nanotechnology. It may be--it may develop into something that 
may be a little bit more like the--say, the genetically 
modified organisms, where, in many parts of the world, in many 
markets, that's very controversial, and there's very low 
consumer confidence in those things, et cetera. So--and a lot 
of suspicion about those things--but in the nanotechnology 
world, one thing I've noticed is that, really, it is a world 
that is being developed right now by small businesses.
    And I guess I'd just ask you, do you have any plans to 
bolster the public trust in nanotechnology and also help these 
small businesses develop these amazing technologies and try to 
implement those and get those into the marketplace?
    Mr. Cresanti. Thank you, Senator. I--it is essential, and I 
know that your State has been among the leaders and--in 
nanotechnology areas--and we--it's my opinion that we cannot 
lose the leadership position in nanotechnology. There is 
significant funding by foreign governments to subsidize their 
universities, their research on nanotechnology, and I think 
that we have to address, both from a consumer confidence 
perspective, as well as from just an outright funding and 
interest level, the nanotechnology issue. And it's one of--it's 
one of the--when TA had its last Under Secretary, Phil Bond, it 
was a primary focus for him, and it will continue to be that 
for me.
    Senator Pryor. Yes, I'd like to work with you on that, as 
we progress.
    Thank you, Mr. Chairman. That's all I have.
    Mr. Cresanti. Thank you.
    The Chairman. Senator Lott?
    Senator Lott. No questions, Mr. Chairman. Good luck to you.
    The Chairman. Good luck to you, Mr. Cresanti. As soon as 
possible, we'll have a markup, and we hope to soon be able to 
call you ``Under Secretary.''
    Mr. Cresanti. Thank you, sir.
    The Chairman. Thank you very much.
    We're now going to call up the nominees from the Department 
of Transportation, one at a time, so that you may join us at 
the table, but, first, just one at a time, introducing your 
families.
    The first would be Admiral Barrett. We'd be pleased to have 
you introduce your family that's here. And we'll put all four 
of you at the table together after you've introduced your 
family.
    Admiral Barrett. Thank you, Mr. Chairman. I have with me 
today my wife, Sheila. She's the mother of our four children: 
Tom, Matt, Rebecca, and Paul. They're not able to be here. But 
I want to thank her for support to me, to the communities we've 
served in, and also to our Nation, most recently, as the mother 
of two of our sons who are Iraq combat veterans. And I'm very 
thankful for her support and her presence here with me today.
    Thank you, sir.
    The Chairman. Thank you. Happy to have you here, Mrs. 
Barrett. Thank you very much.
    The next person is David Sanborn, nominated to be 
Administrator of the Maritime Administration.
    Mr. Sanborn, do you have any family with you today, sir?
    Mr. Sanborn. Yes, sir.
    Thank you, sir, very much for having me here today. And----
    The Chairman. Would you introduce your family, please, sir?
    Mr. Sanborn. Yes, sir. I'm joined by my wife, Terry, who is 
my wife of 33 years. And she's sitting right back behind me. We 
have three children, who, unfortunately, couldn't be here 
today. And I'd just like to give tribute to my wife. I've been 
yanking her around the world pretty much for most of the time 
we've been married, and she's been able to keep us grounded and 
focused and kept a really nice home front for me. And so, I'm 
particularly proud to have her here today.
    The Chairman. Thank you very much. Thank you for joining 
us, Ms. Sanborn. We're happy to have you here.
    The next nominee is Tyler--no, Nicole Nason, the nominee to 
be Administrator of the National Highway Traffic Safety 
Administration at Department of Transportation.
    Do you have family with you, Ms.----
    Ms. Nason. I do, Mr. Chairman. Thank you, Mr. Chairman.
    I am very proud to have with me today my husband, David, 
and our two beautiful daughters, Alexandra, who's almost 5, and 
Abigail, who's about 18 months, in the back, and my parents, 
Janice and Philip Robilotto, and my wonderful in-laws, George 
and Ann Nason.
    The Chairman. That's a nice family.
    Ms. Nason. Thank you.
    The Chairman. We welcome all of you to this hearing, and 
happy to have you with us. If you can spare any of those 
children, we don't have any at home right now. So, we----
    [Laughter.]
    The Chairman. The next nominee is Roger Shane Karr, to be 
Assistant Secretary of Transportation for Governmental Affairs 
at the Department of Transportation.
    Do you have family with you, Mr. Karr?
    Mr. Karr. I do.
    Mr. Chairman, I'd like to introduce my wife, Barrett Karr, 
and my family, who is scattered around the country and couldn't 
make it, but is listening on the Webcast.
    The Chairman. Well, that's good. Thank you very much.
    We thank you very much for being here, and we'll first call 
on Admiral Barrett.
    Pardon me. Do I have one more? Ahhh. All right.
    [Laughter.]
    The Chairman. Who have I forgotten?
    Tyler Duvall, Assistant Secretary of Transportation for 
Transportation Policy. We won't leave without you, Mr. Duvall.
    [Laughter.]
    Mr. Duvall. You could have.
    [Laughter.]
    Mr. Duvall. Thank you, Mr. Chairman. I'm joined today by my 
wife, Andrea, and my unhappy 8-month-old, Julia----
    [Laughter.]
    Mr. Duvall.--and my two-and-a-half-year-old daughter, 
Olivia, and my father, Richard Duvall, and my stepmother, Donna 
Duvall. So, thank you for having us. If she's a disruption 
risk, we'll remove her.
    [Laughter.]
    The Chairman. Well, thank you very much.
    The five of you have brought more people to a nomination 
hearing than I've seen in years, so I thank you very much for 
coming.
    Now we'll turn to Admiral Barrett for any comments you may 
wish to make.

     STATEMENT OF ADMIRAL THOMAS J. BARRETT, NOMINEE TO BE 
             ADMINISTRATOR, PIPELINE AND HAZARDOUS 
 MATERIALS SAFETY ADMINISTRATION, DEPARTMENT OF TRANSPORTATION

    Admiral Barrett. With your permission, Mr. Chairman, Mr. 
Co-Chairman, Senator Lott, Senator----
    The Chairman. Let me interrupt you. We will put all the 
statements in the record in full, and hope you'll summarize 
them, to the extent possible.
    Thank you, Admiral.
    Admiral Barrett. Yes, sir.
    I welcome the opportunity to appear before you today with 
these other nominees as you consider my nomination to serve as 
the first Administrator of the Pipeline and Hazardous Materials 
Safety Administration of the United States Department of 
Transportation. I'm honored to have been nominated by President 
Bush for this important position, and, if confirmed, look 
forward to joining Secretary Mineta and his leadership team at 
the Department. I commit to you I will fully dedicate myself to 
helping ensure PHMSA meets its vital safety obligations and 
also working close with you and your staffs.
    PHMSA was established as a separate administration to 
improve the Department's oversight and regulation of pipeline 
safety and hazardous materials transportation. It is directly 
focused on elimination of transportation-related deaths and 
injuries in hazardous-material and pipeline transportation and 
toward transportation solutions that protect and enhance 
communities and protect the natural environment.
    I believe my experience in the Coast Guard, in a broad 
range of assignments, has provided me the management, 
leadership, and teamwork skills to succeed in the position for 
which I've been nominated. It has given me an excellent 
perspective on how organizations and their personnel work, how 
to ensure mission focus and achieve the performance results 
that the Administration, the Congress, and the public expect.
    Throughout my career, I have worked across Coast Guard 
mission, including safety, security, environmental, and 
resource protection and training. I oversaw vessel and 
industrial systems associated with petroleum and hazardous 
materials transportation, and partnered with State and Federal 
agencies repeatedly. I have worked with other agencies, the 
industry, and the public to reduce the hazards inherent in 
fisheries activities and reduced harmful discharges by 
leveraging technology, using innovative regulatory approaches, 
and taking, where warranted, appropriate enforcement actions. 
Not the least of my risk-management responsibilities included 
safely conducting Coast Guard operations in one of the most 
dangerous environments on the planet.
    I have also, unfortunately, witnessed firsthand the tragic 
consequences of safety failures for individuals, for their 
families, their communities, and the environment. Frankly, I 
have attended too many funerals that need not have occurred. 
These left indelible impressions on me and forged a resolve to 
do all in my power to prevent recurrences.
    Mr. Chairman, I reiterate my commitment to you that, if 
confirmed, I will work as hard as I possibly can to carry out 
the responsibilities entrusted to me.
    Thank you very much, sir.
    [The prepared statement and biographical information of 
Admiral Barrett follow:]

    Prepared Statement of Admiral Thomas J. Barrett, Nominee to be 
Administrator, Pipeline and Hazardous Materials Safety Administration, 
                      Department of Transportation
    Mr. Chairman, Mr. Co-Chairman, and other distinguished Members of 
the Committee,
    I welcome the opportunity to appear before you today with these 
other distinguished nominees as you consider my nomination to serve as 
the first Administrator of the Pipeline and Hazardous Materials Safety 
Administration of the United States Department of Transportation. I am 
honored to have been nominated by President Bush for this important 
position and, if confirmed, look forward to joining Secretary Mineta 
and his superb leadership team at the Department. I commit to you that 
I will fully dedicate myself to helping ensure that PHMSA meets its 
vital safety obligations, working closely with you and your staff.
    (With your permission, I would like to acknowledge my wife Sheila 
who is here with me today, and thank her for her support to me and to 
our Nation, including as the mother of two sons who are Iraq combat 
veterans.)
    PHMSA was established as a separate operating administration to 
improve the Department's oversight and regulation of pipeline safety 
and hazardous materials transportation. PHMSA administers 
comprehensive, nationwide programs designed to protect our communities 
from risks to life, health, property and the environment inherent in 
the commercial transportation of hazardous materials and the operation 
of America's natural gas and hazardous liquid transportation pipelines. 
PHMSA is directly focused on the elimination of transportation related 
deaths and injuries in hazardous materials and pipeline transportation, 
and toward developing transportation solutions that protect and enhance 
communities and safeguard the natural environment.
    I believe my over 35 years of experience in the Coast Guard in a 
broad range of assignments has provided me the management, leadership 
and teamwork skills to succeed in the position for which I have been 
nominated. I believe my experience has given me an excellent 
perspective on how organizations and their personnel work, how to 
ensure focus on mission objectives and achieve the performance results 
that the Administration, the Congress and the public expects.
    Throughout my career I have delivered excellence across Coast Guard 
mission areas that included safety, security, environmental and 
resource protection, and training. During my tenure as Coast Guard 
Commander in Alaska, I oversaw vessels and industrial systems 
associated with petroleum and hazardous materials transportation and 
partnered with State and Federal agencies, tanker and terminal 
operators and citizen groups to improve systems quality assurance, 
safety and response capabilities for petroleum shipments in the Port of 
Valdez and elsewhere in Alaska. I partnered with other agencies, the 
industry and the public to reduce the hazards inherent in fisheries 
activities, and reduce harmful discharges in Alaskan waters by 
leveraging technology, applying innovative regulatory approaches, and 
taking appropriate enforcement actions. Not the least of my risk 
management responsibilities included safely conducting Coast Guard 
operations in one of the most dangerous environments on the planet. I 
always promoted active communications and transparency with respect to 
agency actions. I have also unfortunately witnessed firsthand the 
tragic consequences of safety failure on individuals, families, 
communities and the environment. I have attended too many funerals that 
need not have occurred. These experiences left indelible impressions on 
me and forged a resolve to do all in my power to prevent recurrences.
    Mr. Chairman, I reiterate my commitment to you that, if confirmed, 
I will work as hard as I possibly can to carry out the very important 
responsibilities entrusted to me. Thank you.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Barrett, 
Thomas J. Vice Admiral, U.S. Coast Guard, (Retired).
    2. Position to which nominated: Administrator, Pipeline and 
Hazardous Materials Safety Administration, U.S. Department of 
Transportation.
    3. Date of Nomination: January 25, 2006.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: 901 N. Stuart Street, Suite 200, Arlington, VA.
    5. Date and Place of Birth: January 15, 1947, New York, NY.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Sheila M. Barrett, Docent/Executive Assistant, Women in 
        Military Service to America Memorial, Memorial Avenue, 
        Arlington, VA.

        Children: (Major) Thomas J. Barrett (32); Matthew D. Barrett 
        (31); Rebecca S. Barrett (26); Paul P. Barrett (22).

    7. List all college and graduate degrees. Provide year and school 
attended.

        B.S., LeMoyne College, Syracuse, NY, 1968.
        JD, George Washington University, 1976.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

    Management Level Jobs Held:

        Vice Commandant, United States Coast Guard.

        Commander, Seventeenth Coast Guard District and Naval Forces 
        Alaska.

        Director, Reserve and Training, United States Coast Guard.

        Commanding Officer, Support Center Kodiak Alaska, United States 
        Coast Guard.

        Chief, Legal Programs and Policy, United Stated Coast Guard.

        Deputy Commander, Maintenance and Logistics Command, Atlantic, 
        United States Coast Guard.

        Deputy Chief, Personnel and Training, United States Coast 
        Guard.

        Executive Officer, USCG Base/Support Center, Kodiak Alaska.

        District Legal Officer, Seventeenth Coast Guard District, 
        United States Coast Guard.

        Vice President and Chief Operating Officer, Potomac Institute 
        for Policy Studies.

    Other Related Jobs:

        Outer Continental Shelf Safety Staff, Office of Marine Safety 
        and Environmental Protection, United States Coast Guard.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years.
    Vice President and Chief Operating Officer, Potomac Institute for 
Policy Studies and Director, National Capital Chapter, Navy League of 
the United States.
    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        District of Columbia Bar, 1976-Present.
        Reserve Officers Association, 1997-Present.
        Navy League of the United States, 2004-Present.
        Veterans of Foreign Wars of the United States, 1999-Present.
        U.S. Naval Institute, 1976-Present.
        Army War College Alumni Association, 1989-Present.
        Juneau Alaska Downtown Rotary Association, 1999-2002
        Alaska State Chamber of Commerce-Coast Guard Liaison, 2001-
        2002.
        North Pacific Fisheries Management Council (non-voting member), 
        1999-2002.
        Navy Enlisted Reserve Association, 1997-1999.
        U.S. Coast Guard Academy Board of Trustees, 1997-1999.

    None of these organizations restricts membership on the basis of 
sex, race, religion, national origin, age or handicap.
    12. Have you ever been a candidate for public office? I have never 
been a candidate for public office.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years: None.
    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

    Military Awards

        Coast Guard Distinguished Service Medal.
        Legion of Merit (5 awards).
        Coast Guard Meritorious Service Medal.
        Coast Guard Commendation Medal (2 awards).
        Coast Guard Achievement medal.
        National Defense Service Medal (with 2 bronze stars).
        Humanitarian Service Medal.
        Vietnam Service Medal (with 2 bronze stars).
        Republic of Vietnam Campaign Medal.
        Secretary of Transportation 9/11 Medal.
        Secretary of Defense Service Badge.
        Commandant of the Coast Guard Staff Service Badge Command 
        Ashore Badge.
        Foreign Awards from the Republic of Georgia, Argentina and 
        Malta.

    Civic Awards

        Citations for Service--18th Alaska Legislature: 22nd Alaska 
        Legislature.

        Commendation--Kodiak Island Borough.

        Commendation--Kodiak Island Borough School District.

        Veterans of Foreign Wars of the United States Exceptional 
        Service Award.

        Special Olympics--Special Friend Award.

    Scholarships

        New York State Regents College Scholarship.
        Teamsters College Scholarship.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Deepwater Methods to Reduce Systems of Systems Risks (Paper 
        Presented at IEEE SMC 2005 Conference).

        Coast Guard Reservist Magazine--From the Bridge Columns Tri-
        Monthly 1997-1999.

        Federal Maritime Commission Jurisdiction--George Washington 
        University Law Review Notes--1976.

    Speeches: I spoke regularly on priorities while Coast Guard 
Commander in Alaska in multiple local forums including Coast Guard 
audiences, industry, civic organizations, citizen and public events. My 
priorities always identified safety and environmental focus areas 
including Valdez Marine Terminal operations. I did not maintain records 
of the presentations.

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None (All appearances 
were in an official capacity for the Coast Guard).
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    I am paid a salary by my current employer, Potomac Institute for 
Policy Studies and routinely deal with Potomac Institute customers and 
business clients. I have a 403(b) retirement plan with Potomac 
Institute under which the employer matches my contributions to a 
maximum of 5 percent of my salary. If confirmed by the Senate for this 
position I will sever my employment and business association with 
Potomac Institute. I have no other financial or deferred compensation 
arrangements.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment?
    I have no such commitments or agreements.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None, other than my current 
employment with Potomac Institute.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None other than 
official Coast Guard duties related to the execution of U.S. laws and 
policies.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Please refer to the Deputy General Counsel's Opinion Letter.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere ) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? If so, please explain.
    While serving as the Commanding Officer of the Coast Guard Support 
Center at Kodiak, Alaska, I was accused (informally) by a petty officer 
of harassment because I ordered her to see Coast Guard physician to 
evaluate whether she was suicidal. At the time, I had reason to believe 
she might be. The complaint was informally investigated and dismissed.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you very much.
    Let me now turn to the statement of Mr. Sanborn, 
Administrator of the Maritime Administration.

         STATEMENT OF DAVID C. SANBORN, NOMINEE TO BE 
          ADMINISTRATOR, THE MARITIME ADMINISTRATION, 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Sanborn. Sir, I would like to thank Senator Allen for 
his most gracious comments at the introduction.
    Mr. Chairman, Members of the Committee, it is my great 
honor to be here today as President Bush's nominee for the 
Maritime Administrator. As a graduate of the United States 
Merchant Marine Academy, just being here at this table with 
these fine transportation professionals represents a point in 
my career that most of my peers can only dream about.
    I have spent my entire professional life working in the 
maritime industry, domestically and internationally. This 
experience gives me the firm belief that our cargo 
transportation system and intermodal network in the United 
States are at a critical crossroads for the future.
    We have the labor force, the knowledge, the technical 
capability, and the natural harbor resources to ensure that the 
cargo, which our Nation needs for its survival and security, 
can be transported efficiently and economically. However, we 
need the vision and leadership to bring together all of the 
stakeholders and experts in the cargo supply chain and to 
establish solutions for how we are going to seamlessly handle 
these huge volumes of cargo through our transportation 
infrastructure.
    I sit here in front of you today because I am passionate 
about our maritime future. I have had the good fortune of 
working in numerous operating environments in the United States 
and overseas. This has enabled me to observe firsthand some of 
the most efficient and inefficient cargo handling systems in 
use today.
    If I am allowed to bring this experience to the Maritime 
Administration, I believe we can accomplish some very dynamic 
and advanced changes in current thought on how to most 
efficiently handle cargo flow. If I am confirmed, I will take 
this opportunity to play a leadership role in bringing our U.S. 
flag fleet back to the preeminence that it once enjoyed.
    I welcome the chance to work to advance our cargo 
infrastructure so that the United States is the envy of our 
trading partners. I believe that the United States can be the 
proving ground for technology that advances cargo security 
systems, cargo handling capability, cargo tracking, and cargo 
logistics systems. In this effort, it is critical that we 
ensure that the security of our ports and infrastructure is 
part of our planning and strategies.
    The time has also come to focus on our shipyards so that 
they can return to being the facilities of choice for 
constructing the most technologically advanced vessels in the 
world. I believe the Maritime Administration is the agency that 
can provide the leadership, together with the technological 
expertise and knowledge, to deliver this ambitious vision. I am 
convinced that the Maritime Administration can be the go-to 
agency for transportation solutions that will support the needs 
of both our governmental cargo-carrying requirements, as well 
as our commercial customers.
    If you will give me this opportunity by confirming my role 
in this organization, I will commit energy and knowledge to 
leading the Maritime Administration and working with the many 
fine people who are equally dedicated as I am to a legacy of 
maritime excellence.
    Thank you for having me here today.
    [The prepared statement and biographical information of Mr. 
Sanborn follow:]

 Prepared Statement of David C. Sanborn, Nominee to be Administrator, 
       the Maritime Administration, Department of Transportation
    Thank you, Senator Allen, for your most gracious comments.
    Mr. Chairman, Members of the Committee.
    It is my great honor to be here today as President Bush's nominee 
for the Maritime Administrator. As a graduate of the United States 
Merchant Marine Academy just being here at this table with these fine 
transportation professionals represents a point in my career that most 
of my peers can only dream about.
    I have spent my entire professional life working in the maritime 
industry, domestically and internationally. This experience gives me 
the firm belief that our cargo transportation system and intermodal 
network in the United States are at a critical crossroad for the 
future.
    We have the labor force, the knowledge, the technical capability, 
and the natural harbor resources to ensure that the cargo, which our 
Nation needs for its survival and security, can be transported 
efficiently and economically. However, we need the vision and 
leadership to bring together all of the stakeholders and experts in the 
cargo supply chain, and to establish solutions for how we are going to 
seamlessly handle these huge volumes of cargo through our 
transportation infrastructure.
    I sit here in front of you today because I am passionate about our 
maritime future. I have had the good fortune of working in numerous 
operating environments in the United States and overseas. This has 
enabled me to observe firsthand some of the most efficient and 
inefficient cargo handling processes in use today. If I am allowed to 
bring this experience to the Maritime Administration, I believe we can 
accomplish some very dynamic and advanced changes in current thought on 
how to most efficiently handle cargo flow.
    If I am confirmed, I will take this opportunity to play a 
leadership role in bringing our U.S Flag fleet back to the preeminence 
it once enjoyed, and to expand upon our domestic cargo carrying 
capability. I welcome the chance to work to advance our cargo 
infrastructure so that the United States is the envy of our trading 
partners. I believe that the United States can be the proving ground 
for technology that advances cargo security systems, cargo handling 
capability, cargo tracking, and cargo logistics systems. In this effort 
it is critical that we ensure that the security of our ports and 
infrastructure is part of our planning and strategies. The time has 
also come to focus on our shipyards, so that they can return to being 
facilities of choice for constructing the most technologically advanced 
vessels in the world.
    I believe the Maritime Administration is the agency that can 
provide the leadership, together with the technological expertise and 
knowledge, to deliver this ambitious vision. I am convinced that the 
Maritime Administration can be the ``go to'' agency for transportation 
solutions that will support the needs of both our governmental cargo 
carrying requirements as well as our commercial customers.
    If you will give me the opportunity by confirming my role in this 
organization I will commit my energy and knowledge to leading the 
Maritime Administration and working with the many fine people who are 
equally dedicated, as I am, to a legacy of maritime excellence.
    I would be happy, now, to answer any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): David 
Christopher Sanborn.
    2. Position to which nominated: Maritime Administrator, U.S. 
Department of Transportation.
    3. Date of Nomination: January 18, 2006.
    4. Address (List current place of residence and office addresses):
        Residence: Information not released to the public.
        Office: DP World Caucedo Zona Franca Multimodal Caucedo, MOB 
        Bldg., Suite 300, Punta Caucedo, Boca Chica, Dominican 
        Republic.
    5. Date and Place of Birth: May 12, 1951, Richmond, Virginia.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Wife--Theresa Marie Sanborn--Housewife
        Son--Christopher David Sanborn--30 Years
        Daughter--Erica Marie Sanborn--27 Years
        Daughter--Tracy Marie Sanborn--23 Years

    7. List all college and graduate degrees. Provide year and school 
attended.
    United States Merchant Marine Academy, 1969-1973, Bachelor of 
Science, Marine Transportation.
    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        DP World: Director of Operations for Europe and Latin America.

        CMA-CGM (America) LLC: Senior Vice President for North America 
        Service Delivery.

        American President Lines, Pet. Ltd: Vice President for 
        Network--Operations for North America, Vice President for 
        Network--Operations for Asia/Middle East, Vice President for 
        Operations for Asia/Middle East.

        Sea-Land Service, Inc: Director--Operations, America's 
        Division; Director--Operations, Brazil; General Manager, Middle 
        East and India Sub-Continent, General Manager, Sales--AME 
        Division, Director, Operations--Europe; Port Manager, Tacoma; 
        Director, Operations--Asia; Port Manager, Hong Kong; Marine 
        Manager, Algeciras.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years.

        DP World: Director of Operations for Europe and Latin America.

        CMA-CGM (America) LLC: Senior Vice President for North America 
        Service Delivery.

        American President Lines, Pte. Ltd: Vice President for 
        Network--Operations for North America; Vice President for 
        Network--Operations for Asia/Middle East, Vice President for 
        Operations for Asia/Middle East.

        Sea-Land Service, Inc: Director--Operations, America's 
        Division; Director--Operations, Brazil.

    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization.
    Include dates of membership and any positions you have held with 
any organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        SOLE (Society of Logistics Engineers).

        East Bay Agency for Children, Board of Directors, 11/2003-05/
        2004.

        OCEMA (Ocean Carrier Equipment Management Association), 2002-
        2004.

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt: No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years: None.
    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements: None.
    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

  <bullet> Transportation Logistics Seminar as an invitee of the 
        Georgia Ports Authority (speech).

  <bullet> Terminal Operations, as an invitee of the Brookings 
        Institute (speech).

  <bullet> Moderated a transportation systems course for GMATS at the 
        United States Merchant Marine Academy.

  <bullet> Presentation to a Junior/Senior class on Transportation 
        Logistics at the United States Merchant Marine Academy.

  <bullet> Presentation to a class of government security personnel on 
        ocean liner and container terminal security for GMATS at the 
        United States Merchant Marine Academy.

  <bullet> Presented two courses to CSI Customs Agents for GMATS at the 
        United States Merchant Marine Academy

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    Please refer to the Department of Transportation Deputy General 
Counsel's Opinion Letter.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    Please refer to the Department of Transportation Deputy General 
Counsel's Opinion Letter.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Please refer to the Department of Transportation Deputy General 
Counsel's Opinion Letter.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Yes, sir. Thank you very much for your 
comments.
    Our next comment is from Ms. Nason. Would you please make 
your statement?

          STATEMENT OF NICOLE R. NASON, NOMINEE TO BE 
          ADMINISTRATOR, THE NATIONAL HIGHWAY TRAFFIC 
             SAFETY ADMINISTRATION, DEPARTMENT OF 
                         TRANSPORTATION

    Ms. Nason. Thank you, Chairman Stevens.
    Chairman Stevens, Co-Chairman Inouye, Members of the 
Committee, thank you for the opportunity to appear before you 
today to be considered for the position of Administrator of the 
National Highway Traffic Safety Administration. I thank Senator 
Allen for his kind remarks, and I am humbled and honored that 
President Bush and Secretary Mineta would offer me this 
opportunity to continue to serve in this administration.
    As the mother of two small children, daughter of a police 
chief, and a car-crash victim, highway safety is not an 
abstract issue to me, but, rather, a matter I take intensely 
seriously. As this committee is well aware, in 2004 there were 
42,636 American lives lost on our roads, 2.8 million people 
were injured, and the cost to society was a staggering $230 
billion. Car crashes are the leading cause of death for people 
ages 3 to 33. And I accepted the President's nomination for 
this important position to reduce the toll of motor vehicle 
crashes on American families.
    After I was confirmed as the Assistant Secretary for 
Government Affairs, Secretary Mineta gave me one charge, to 
help pass the strongest possible highway safety legislation as 
part of the Surface Transportation Reauthorization bill. The 
result was SAFETEA-LU, a statute containing significant safety 
provisions, largely written by members of this committee. As 
the Secretary's main liaison to Capitol Hill, I was pleased and 
proud to play a role in helping shape this landmark highway 
safety law. The challenge for the agency now is to effectively 
implement what Congress has enacted.
    I also plan, if confirmed, to go beyond the SAFETEA-LU 
roadmap and address other areas in highway safety where greater 
gains can be realized.
    Mr. Chairman, if you open the metro section of any major 
newspaper on any given day, you will invariably find a story 
about a teenage highway fatality, and alcohol will often be 
involved. In fact, nearly a quarter of drivers age 15 to 20 who 
were killed in crashes had a blood alcohol level above the 
legal limit of .08. While teen driving is primarily, and 
properly, a State issue, the Federal Government can offer 
guidance, resources, and leadership to the States to address 
this problem.
    Mr. Chairman, there is hardly a family in America that has 
not been impacted by a car crash. And I introduced my family 
earlier. I am especially proud to have my father, retired 
Police Chief Philip Robilotto, with me. As a lieutenant in 
command of the Highway Patrol Bureau, my father ran one of the 
earliest STOP-DWI initiatives in New York, and he was one of 
the first-ever Motorcycle Safety Foundation certified 
instructors. He taught me my first lessons regarding the 
importance of road and vehicle safety.
    Mr. Chairman, I'm eager to use my legal training, my DOT 
experience, and my leadership and management skills so the 
tools that Congress provided in SAFETEA-LU can translate into 
lives saved and injuries prevented.
    Thank you for your consideration. I would be happy to 
answer any questions.
    [The prepared statement and biographical information of Ms. 
Nason follow:]

Prepared Statement of Nicole R. Nason, Nominee to be Administrator, the 
     National Highway Traffic Safety Administration, Department of 
                             Transportation
    Chairman Stevens, Co-Chairman Inouye, Members of the Committee, 
thank you for the opportunity to appear before you today to be 
considered for the position of Administrator of the National Highway 
Traffic Safety Administration at the Department of Transportation. I am 
humbled and honored that President Bush and Secretary Mineta would 
offer me this opportunity to continue to serve in this Administration.
    As the mother of two small children, daughter of a police chief, 
and car crash victim, highway safety is not an abstract issue to me, 
but rather a matter I take intensely seriously. As this Committee is 
well-aware, in 2004, 42,636 people died on our Nation's roads; 2.8 
million people were injured, and the cost to society was a staggering 
$230 billion. Car crashes are the leading cause of death for people 
ages 3 to 33 and I accepted the President's nomination for this 
important position to reduce the toll of motor vehicles crashes on 
American families.
    After I was confirmed as the Assistant Secretary for Government 
Affairs, Secretary Mineta gave me one charge: to help pass the 
strongest possible highway safety legislation as part of the surface 
transportation reauthorization bill. The result was SAFETEA-LU, a 
statute containing significant safety provisions largely written by 
Members of this Committee. As the Secretary's main liaison to Capitol 
Hill, I was pleased and proud to play a role in helping shape this 
landmark highway safety law. The challenge for the agency now is to 
effectively implement what Congress has enacted.
    I also plan, if confirmed, to go beyond the SAFETEA-LU roadmap and 
address other areas in highway safety where greater gains can be 
realized. Mr. Chairman, if you open the metro section of any major 
newspaper on any given day, you will invariably find a teenage highway 
fatality story, and alcohol will often be involved. In fact, nearly a 
quarter of drivers age 15 to 20 who were killed in crashes had a blood 
alcohol level above the legal limit of .08. While teen driving is 
primarily and properly a state issue, the Federal Government can offer 
guidance, resources and leadership to the states to address this 
problem. If confirmed, I intend to encourage this debate so state 
policymakers can make informed decisions on how best to protect their 
youth. In addition, I believe we also need to tackle the issue of 
elderly drivers. As the baby boomer generation evolves into retirement, 
the elderly driver issue will become more important for the agency. If 
confirmed, I plan to expand on the programs already underway at NHTSA 
to minimize any potential loss of life.
    Mr. Chairman, there is hardly a family in America that hasn't been 
impacted by a car crash. I am grateful to have my family with me today, 
but I am especially proud to have my father, retired police Chief 
Philip Robilotto. As the lieutenant in command of the highway patrol 
bureau, my father ran one of the earliest Stop DWI initiatives in New 
York and he was one of the first-ever Motorcycle Safety Foundation 
certified instructors. He taught me my first lessons regarding the 
importance of road and vehicle safety.
    Congress has given NHTSA significant resources and authority to 
attack this problem. I am eager to use my legal training, my DOT 
experience, and my leadership and management skills so the tools 
Congress provided in SAFETEA-LU translate into lives saved and injuries 
prevented. Thank you for your consideration and I would be happy to 
answer any questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Nicole 
Robilotto Nason, formerly Nicole Francine Robilotto.
    2. Position to which nominated: Administrator, National Highway 
Traffic Safety Administration.
    3. Date of Nomination: January 18, 2006.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: Department of Transportation, 400 7th Street, SW, 
        Washington, DC.

    5. Date and Place of Birth: August 12, 1970, Bayshore, NY.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        David G. Nason, Deputy Assistant Secretary, U.S. Department of 
        the Treasury.

        Alexandra Hope Nason, Age 4 (March 29, 2001).
        Abigail Faith Nason, Age 1 (September 17, 2004).

    7. List all college and graduate degrees. Provide year and school 
attended: The American University, Bachelor of Arts in Political 
Science, 1992; Case Western Reserve University, Juris Doctorate, 1995.
    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.
    Assistant Secretary for Governmental Affairs, U.S. Department of 
Transportation, 2003-Present.
    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years.

        Assistant Commissioner, U.S. Customs Service, U.S. Department 
        of the Treasury (now Department of Homeland Security), January 
        2002-March 2003.

        Office of U.S. Representative Porter J. Goss, September 2000-
        January 2002.

    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years: None
    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.
    Student Advisor, The American University, 1995-2001; American Bar 
Association, 1992-1996 (approx.); Maryland State Bar Association, 1995-
1997 (approx.): Cornerstone School of Washington, DC, 2000-present 
(sponsor of one child); Washington Golf and Country Club, 2005-present; 
St. Agnes Catholic Church Parish, 2000-present.
    12. Have you ever been a candidate for public office? I have never 
been a candidate for public office.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years: Bush-Cheney 2004--$1,000.
    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        Suffolk County Police Memorial Scholarship winner, 1988-1992.

        U.S. Customs Service, Customs Service Ensign (for ``significant 
        contribution to the mission'' of the agency), 2003.

        U.S. Department of Transportation, Secretary's Team Award, 
        2005.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: None.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    While serving as the Assistant Commissioner of the U.S. Customs 
Service, I represented the Administration's position regarding bills 
affecting the Customs Service and/or the Department of Treasury. As the 
Assistant Secretary of the Department of Transportation, every piece of 
legislation, including all appropriations and authorizing legislation 
impacting the Department was monitored by the Office of Governmental 
Affairs.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Please see the Deputy General Counsel's opinion letter.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? None.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere ) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you very much.
    The next comment will be from Mr. Duvall. We'll not forget 
you this time, Mr. Duvall.
    [Laughter.]

        STATEMENT OF TYLER D. DUVALL, NOMINEE TO BE AN 
ASSISTANT SECRETARY OF TRANSPORTATION FOR POLICY, DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Duvall. Thank you, Mr. Chairman and Mr. Co-Chairman and 
Members of the Committee. And thank you, Senator Allen, 
obviously, for those very kind remarks.
    I greatly appreciate the Committee's willingness to 
consider my nomination, given your busy legislative schedule. 
It is a privilege to appear before you.
    I am honored to be President Bush's nominee to be Assistant 
Secretary for Transportation Policy at the U.S. Department of 
Transportation. And I am extremely excited to have an 
opportunity to assist Secretary Mineta and Deputy Secretary 
Cino in the development of national transportation policies, if 
I am confirmed.
    I would not be here today without the love and support I 
have received from my wife, Andrea, and my parents and 
stepparents. And I would not know the joy, the overwhelming 
joy, of being a parent without my daughters, Olivia and Julia, 
and I'm grateful that they could be here today.
    In my opinion, there are few areas of policy more 
fascinating than those currently within the scope of our 
Department's mission. No other networks impact the lives of 
Americans or the U.S. economy more fundamentally and more 
frequently than our transportation networks. In recent decades, 
the strength of these networks has facilitated a global 
economic transformation that has dramatically increased the 
well-being of billions of--of millions of Americans and 
billions of people around the world. It has allowed U.S. 
consumers and producers to access international markets in ways 
previously thought impossible. The completion of the interstate 
highway system, the single largest public investment in the 
history of the world, a revolution in supply chain and 
inventory management, and the rapid growth in the number of 
Americans traveling by air following deregulation are all 
historic achievements. But historic achievements, alone, do not 
lay the foundation for a prosperous future.
    The strains on our transportation systems are becoming 
clear. To be sure, these strains are the product of a vibrant 
economy, but they also represent an underlying threat to that 
economy. It is precisely the size and importance of the 
challenges before us that have inspired me to public service 
and to work for one of the great public servants of my 
generation, Secretary Mineta.
    The country has a moment of unprecedented opportunity in 
the next several years. On multiple fronts, from system 
capacity to urban and suburban congestion, to the safety of all 
those using the transportation system, the possibility of great 
achievement exists. I believe my background and experience in 
the policy office for the past 4 years, including as Acting 
Assistant Secretary and Deputy Assistant Secretary for two and 
a half of those years, qualifies me well to serve both the 
President and Secretary Mineta as we collectively pursue these 
achievements. Having worked closely with each of the 
Department's operating administrations in the development of 
the recently enacted Surface Transportation Reauthorization 
bill, I have gained a deep understanding of both the internal 
and external challenges confronting our Department. And, if I 
am confirmed, I would work closely with Secretary Mineta to 
establish an ambitious agenda for his policy office.
    This Committee has a critical role to play in our Nation's 
transportation future, and, if the Senate provides its advice 
and consent, I would welcome the opportunity to help establish 
that future together.
     I would be pleased to respond to any questions you may 
have. Thank you.
    [The prepared statement and biographical information of Mr. 
Duvall follow:]

   Prepared Statement of Tyler D. Duvall, Nominee to be an Assistant 
  Secretary of Transportation for Policy, Department of Transportation
    Thank you, Mr. Chairman and Members of the Committee.
    I greatly appreciate the Committee's willingness to consider my 
nomination given the busy legislative schedule. It is a privilege to 
appear before you.
    I am honored to be President Bush's nominee for Assistant Secretary 
for Transportation Policy of the Department of Transportation, and I am 
extremely excited to have an opportunity to assist Secretary Mineta and 
Deputy Secretary Cino in the development of national transportation 
policies if I am confirmed.
    I would not be here today without the love and support I have 
received from my wife Andrea and my parents and step-parents. And I 
would not know the overwhelming joy of being a parent without my 
daughters Olivia and Julia.
    In my opinion, there are few areas of policy more fascinating than 
those currently within the scope of our Department's mission. No other 
networks impact the lives of Americans and the U.S. economy more 
fundamentally and more frequently than our transportation networks. 
Efficient and safe mobility of people and goods provides a necessary 
foundation for our country's continued economic growth and plays a 
large role in shaping the quality of life of all of our citizens.
    In recent decades, the strength of these networks has facilitated a 
global economic transformation that has dramatically increased the 
well-being of billions of people around the world. It has allowed U.S. 
consumers and producers to access international markets in ways 
previously thought impossible.
    The completion of the interstate highway system, the single largest 
public investment in the history of the world; a revolution in supply 
chain and inventory management; and the rapid growth in the number of 
Americans traveling by air following deregulation are all historic 
achievements. But historic achievements alone do not lay the foundation 
for a prosperous future.
    The strains on our transportation systems are becoming clear. To be 
sure, these strains are the product of a vibrant economy, but they also 
represent an underlying threat to that economy. It is precisely the 
size and importance of the challenges before us that have inspired me 
to public service and to work for one of the great public servants of 
my generation, Secretary Mineta.
    The country has a moment of unprecedented opportunity in the next 
several years. On multiple fronts, from system capacity, to urban and 
suburban congestion, to the safety of all those using the 
transportation system, the possibility of great achievement exists.
    I believe my background and experience in the policy office for the 
past four years, including as Acting Assistant Secretary and Deputy 
Assistant Secretary for two and a half of those years, qualifies me 
well to serve both the President and Secretary Mineta as we 
collectively pursue these achievements.
    Having worked closely with each of the Department's operating 
administrations in the development of the recently enacted surface 
transportation reauthorization legislation, I have gained a deep 
understanding of the internal and external challenges confronting the 
Department, and if I am confirmed, I would work closely with Secretary 
Mineta to establish an ambitious agenda for his policy office.
    This Committee has a critical role to play in our Nation's 
transportation future, and if the Senate provides its advice and 
consent, I would welcome the opportunity to help establish that future 
together.
    I would be pleased to respond to any questions you might have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Tyler Davis 
Duvall.
    2. Position to which nominated: Assistant Secretary for 
Transportation Policy.
    3. Date of Nomination: 1/18/2006.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
    Office: U.S. Dept. of Transportation, 400 Seventh Street, S.W., 
Washington, D.C.
    5. Date and Place of Birth: January 5, 1973, Washington, D.C.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Andrea Cummings Duvall, currently a stay-at-home 
        mother.
        Children: Olivia Tate Duvall, age 2 years; Julia Ryan Duvall, 
        age 7 months.

    7. List all college and graduate degrees. Provide year and school 
attended.

        B.A., Washington and Lee University, 1995, major--economics.
        J.D., University of Virginia School of Law, 1998.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        Acting Assistant Secretary for Transportation Policy, Feb. 
        2005-Sep. 2005.

        Deputy Assistant Secretary for Transportation Policy, Oct. 
        2003-present.

        Prior to becoming Deputy Assistant Secretary in 2003, worked as 
        Special Assistant to the Assistant Secretary for Transportation 
        Policy.

        Prior to joining USDOT, worked from October 1998 to February 
        2002 as an associate in the Business and Finance Group at Hogan 
        & Hartson LLP.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years: None.
    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex. race, color, religion, 
national origin, age or handicap.

    I am currently a junior member at Congressional Country Club in 
Potomac, Maryland. The Club does not restrict membership on the basis 
of sex, race, color, religion, national origin, age or handicap. I have 
been a junior member from 1/91 to present.

        Associate Member of Virginia Bar from 7/02-present.
        Active Member of Virginia Bar from 10/98-7/02.

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt: No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        $2,000 contributed to Bush-Cheney 2004 (Primary) Inc.
        $750 contributed to Republican National Committee in 2000.
        $500 contributed to Bush for President Inc.

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.
    Omicron Delta Epsilon (International Honor Society for Economics); 
Scholar Athlete Award at Washington and Lee University.
    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    In my current role, I have given a variety of transportation policy 
speeches in support of the Administration's positions to various 
transportation stakeholders including the American Road and 
Transportation Builders Association and Construction Industry 
Roundtable; Florida Transportation Commission; TEX-21 (forum held by 
the Texas Department of Transportation); National Academy of Sciences; 
New York Business Council; Baltimore Metropolitan Planning 
Organization; MIT Center for Transportation and Logistics; Rudin 
Center; Oberstar Forum on Transportation; National Association of 
Counties; the U.S. Chamber of Commerce; the Pew Institute; the American 
Recreation Coalition; and the Rudin Center.
    Prior to joining the Administration, I wrote a letter to the editor 
in support of President Bush in 2000 that was printed in the Washington 
Post.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    Please refer to the Department of Transportation Deputy General 
Counsel's Opinion Letter.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    Since joining the Administration in February 2002, I have assisted 
in the development and advancement of the Administration's 
transportation policy priorities, including surface transportation and 
all appropriations legislation.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Please refer to the Department of Transportation Deputy General 
Counsel's Opinion Letter.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.
    I received a $100 citation for theft of a street sign during my 
freshman year in college.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere ) of any criminal violation other than a minor traffic 
offense? If so, please explain.
    I received a $100 citation for theft of a street sign during my 
freshman year in college.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you very much.
    And now, Mr. Roger Shane Karr, to be Assistant Secretary of 
Transportation for Governmental Affairs.

        STATEMENT OF ROGER SHANE KARR, NOMINEE TO BE AN 
           ASSISTANT SECRETARY OF TRANSPORTATION FOR 
              GOVERNMENTAL AFFAIRS, DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Karr. Thank you, Mr. Chairman, Mr. Co-Chairman, Senator 
Lott, Senator Pryor. It's a privilege to appear before you 
today to be considered for the position of Assistant Secretary 
for Governmental Affairs at the Department of Transportation. I 
am profoundly grateful to President Bush for offering me this 
opportunity to continue to serve in his administration, and I 
am deeply honored that Secretary Mineta would recommend me for 
this position.
    Secretary Mineta frequently reminds his team to remember 
who our customers are. For the Assistant Secretary of 
Governmental Affairs, the customers are clear: the Congress. 
So, I'll keep it short. If I'm confirmed, my pledge to you is 
to provide the best possible customer service to you and your 
staffs.
    As I said before, I'm grateful to my wife, Barrett, to my 
parents, Dennis and Ellen, who are listening somewhere in 
Phoenix, and to the rest of my family and friends for all of 
their support. And I look forward to the opportunity, if 
confirmed, to work closely with you and your staff to address 
our Nation's critical transportation priorities and to ensure 
the Department's programs are delivering real benefits to your 
constituents.
    Thank you for considering my nomination.
    [The prepared statement and biographical information of Mr. 
Karr follow:]

  Prepared Statement of Roger Shane Karr, Nominee to be an Assistant 
  Secretary of Transportation for Governmental Affairs, Department of 
                             Transportation
    Chairman Stevens, Co-Chairman Inouye, Members of the Committee, it 
is a privilege to appear before you today to be considered for the 
position of Assistant Secretary for Governmental Affairs at the 
Department of Transportation. I am profoundly grateful to President 
Bush for offering me this opportunity to continue to serve in his 
Administration. And I am deeply honored that Secretary Mineta would 
recommend me for this position.
    Secretary Mineta frequently reminds his team to ``remember who our 
customers are.'' Congress and State and local governments are the 
Office of Governmental Affairs' customers. So, if I am confirmed, my 
goal will be to provide the best possible customer service to you and 
your staff.
    I will always be available to answer questions, solve problems, or 
carry a message back to Secretary Mineta. I will insist that all 
governmental affairs staff at the Department do the same. We will be 
proactive to keep you and your staff well informed of the Department's 
activities, and we will be responsive to your requests. We will work to 
ensure that the Department adheres to both the letter and the spirit of 
the law. And we will work closely with you to pass critical 
transportation legislation and to ensure that the Department's programs 
are operating effectively and delivering real benefits to your 
constituents.
    The opportunity to serve as Assistant Secretary for President Bush 
and Secretary Mineta is a rare honor. I am grateful to my wife Barrett 
and to my family and friends for all of their support. And I look 
forward to the opportunity, if I am confirmed, to work closely with you 
and your staff to address our Nation's critical transportation 
priorities.
    Thank you for considering my nomination, and I would be pleased to 
answer your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Roger Shane 
Karr.
    2. Position to which nominated: Assistant Secretary for 
Governmental Affairs.
    3. Date of Nomination: January 18, 2006.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: U.S. Department of Transportation, 400 Seventh Street, 
        S.W., Rm. 10200, Washington, DC 20590.

    5. Date and Place of Birth: May 7, 1970, Sumter, SC.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    Elizabeth Barrett Karr, Special Assistant to the President for 
Legislative Affairs The White House.
    7. List all college and graduate degrees. Provide year and school 
attended.

        Texas Christian University, B.A., Religion Studies (1992).
        Temple University, M.A., Religion (1996).
        Georgetown University Law Center, J.D. (2002).

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        U.S. Department of Transportation: Deputy Chief of Staff (March 
        2005-Present); Deputy Assistant Secretary, Governmental Affairs 
        (March 2003-February 2005); Special Assistant, Governmental 
        Affairs (July 2001-February 2003).

        American Association of Airport Executives, Manager, Regulatory 
        Affairs (September 2000-July 2001).

        American Airlines, Legislative Assistant (April 1997-August 
        2000).

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years: None.
    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.
    Texas Christian University, Washington, D.C., Metropolitan Alumni 
Association (Member 1997-Present; Board Member 1997).
    12. Have you ever been a candidate for public office? No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        03/23/2004--Bush-Cheney 2004 (Primary)--$500.
        10/20/2004--Republican National Committee--$525.

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.
    Transportation Secretary's 9/11 Medal.
    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: None.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    Please refer to the Department of Transportation Deputy General 
Counsel's Opinion Letter.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
Administration and execution of law or public policy.
    I served in DOT's Office of Governmental Affairs in different 
capacities from July 2001 through March 2005. During that time, I 
advocated for a variety of Administration priorities, including but not 
limited to annual appropriations, aviation and surface transportation 
program reauthorizations, transportation security legislation, NAFTA/
cross-border trucking implementation and corporate average fuel economy 
standards.
    Prior to joining DOT, I worked for the American Association of 
Airline Executives in its regulatory affairs office, where I regularly 
interfaced with DOT and FAA officials on issues related to airport 
finance/economics, such as passenger facility charges, and matters 
relating to airport rates, charges and bonds.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Please refer to the Department of Transportation Deputy General 
Counsel's Opinion Letter.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you very much.
    Admiral Barrett, we have jurisdiction over both the 
Pipeline Administration to which you have been nominated and 
the Transportation Security Administration. And we have to make 
policy decisions from time to time between the safety and 
security concepts that are involved in these two organizations. 
Have you been able to determine the difference between the two 
in your briefings before you've come before us?
    Admiral Barrett. Senator, I'm generally aware of the 
differences. I--Mr. Chairman, I'm generally aware of the 
differences. I have worked closely with TSA in the past, and, 
if confirmed, I would expect to work closely with them to 
clarify the respective responsibilities as those safety 
responsibilities and security responsibilities obviously 
intersect and have to be closely coordinated.
    The Chairman. I don't know of any memorandum of agreement 
or any concept of--you know, written policy concerning the two 
agencies. Have you been informed of any?
    Admiral Barrett. I'm not aware of any, Mr. Chairman.
    The Chairman. Well, would you do us the kindness of, once 
you get confirmed--and I believe you will be--will you 
determine whether legislation might be necessary to delineate 
the areas of those two agencies we're organized to serve and 
sort of give us an opportunity to decide whether legislation 
should be in order, or determine whether an MOU would do the 
job. We would like to have some line between the two, if you 
could help us on that.
    Admiral Barrett. Mr. Chairman, I understand your concern, 
and I would be, if confirmed, pleased to give it my prompt 
attention.
    The Chairman. Now, we've got one pipeline. We, hopefully, 
will have another one soon, an enormous gas pipeline, we hope. 
I've been told there are sort of--``redundancies'' would be the 
word to use, in terms of the inspections and the reports and 
whatnot that are required for both safety and security. That's 
one of the reasons for my request. I would hope that you would 
take a look at that. We want absolute safety, and we want 
absolute security, but the redundancy matter ought to be 
examined to see whether they ought to be either separated or 
combined. They're neither right now; there's just an overlap 
between them. Appreciate it if you indicate that.
    Mr. Sanborn, we understand your background in the shipping 
area, and commitment to the agency that you will be an 
administrator of. Have you looked at any changes you'd like to 
bring about once you become confirmed to this new position?
    Mr. Sanborn. Senator, I thank you for the question. I have 
had a chance to spend some time in my briefings discussing 
several of the programs, and I look forward to--if you confirm 
me, I look forward to getting some ideas from you on what to--
on what you think some of those changes might look like. I do 
have some ideas, and I intend to work on them very quickly 
after I am confirmed.
    The Chairman. Senator Inouye and I had occasion to go out 
and take a look at the Port of Los Angeles. When I was a kid 
growing up out there, there was a port for Long Beach, and one 
for San Pedro, and a little one called the Los Angeles--they're 
all one great big port now, probably the fourth largest port on 
the world. About 40 percent of all the produce coming in by 
water--not produce, but materials coming by water, come through 
that port. Now, you have some overlapping jurisdiction with 
those areas, too, do you not?
    Mr. Sanborn. Yes, I do, sir. If I'm confirmed, I will be 
spending a lot of time on issues with respect to intermodalism 
on the West Coast.
    The Chairman. Well, that's very necessary. We saw there's 
only a single-line railroad going into that port and coming out 
of it, and probably warehouses all the way out to San 
Bernardino waiting for delivery on one rail. I can't conceive 
that that can go on much longer, so they need some leadership 
there. We would urge you to take a look at it.
    Ms. Nason, I was pleased with your statement, and would ask 
just one question. What is your priority for reducing the 
unacceptable number of deaths and accidents on our highways? 
What do you think you're going look at first?
    Ms. Nason. Well, Senator, as Secretary Mineta made clear to 
me, it was my responsibility----
    The Chairman. Can you push the button? Yes.
    Ms. Nason. How's that?--to keep the ``safe'' in SAFETEA, as 
he used to put it. So, I think one of the great advantages to 
the next NHTSA Administrator is that we've been provided all of 
these significant tools by the Congress in SAFETEA-LU, 
especially the incentive grants for the States. Alaska and 
Mississippi have moved out and passed primary incentive--
primary belt laws, and I think that is largely due to the 
leadership of this committee. So, that is something that we 
will get out and pound the drum on if I am confirmed.
    The Chairman. That's good.
    Senator Lott. If I might interject, Mr. Chairman, our 
Governor signed that legislation, I believe, in the last day or 
two, so--I mean, just very recently.
    Ms. Nason. Congratulations to you, Senator Lott. That was 
your effort, I believe.
    Senator Lott. Nine million dollars is all it took.
    [Laughter.]
    Ms. Nason. There's more. We need to spread the word.
    [Laughter.]
    The Chairman. No, there's nothing like a little enticement 
with, ``Money will come if you behave yourself.''
    But let me say, Mr. Duvall, I really don't have any 
questions for you.
    Mr. Karr, I understand what you say, that you're there to 
assist the Congress. I will say that your pledge really is one 
that we ought to respond by saying that we would like to have 
responses in a timely and unbiased manner. We have many 
requests that seem to go unanswered as they go down to the 
Department. We'd be pleased to have your assistance in seeing 
to it that the Department--the agencies, the Transportation 
Department respond to our committee's requests in a timely 
fashion. Can you help us on that?
    Mr. Karr. Mr. Chairman, if I am confirmed, not only will 
that be a high priority in my immediate office, but I will 
ensure that that's also a priority in the operating 
administrations.
    The Chairman. The best way I can put it is to say, in the 
last century, I was the Assistant to the Secretary of Interior 
for Legislative Affairs, so I know that you've got a tough job. 
And we look forward to working with you on the basis of mutual 
cooperation, believe me.
    Mr. Karr. Thank you, Senator.
    The Chairman. Senator Inouye, I don't have any further 
questions. Do you have any questions?
    Senator Inouye. Mr. Chairman, I thank you very much. I'm 
prepared to cast my vote in favor of all of the nominees. I'm 
convinced that Secretary Mineta did a good job. But I would 
like to submit, if I may, a few questions for your 
consideration, somewhat technical. It may take more than 2 
minutes to respond to.
    Senator Inouye. But I just want to tell Mr. Sanborn, when I 
arrived in the Washington, in the U.S. Senate, if my 
recollection is correct, American bottoms carried 85 percent of 
all the cargo containers in the seven seas. How are we doing 
now?
    Mr. Sanborn. Senator, it's a question that concerns me 
greatly, because we're not doing very well. And I don't propose 
to have all of the answers. But, if I'm confirmed, I think the 
experience and the time that I've spent in the industry, and, 
most importantly, the people that I have worked with the 
industry, I think we can find some ways to make it better. I 
don't know if we're going to get back to 85 percent, but we 
need to make it better than it is today, sir.
    Senator Inouye. I'll be with you.
    Mr. Sanborn. Thank you.
    Senator Inouye. Thank you very much, Mr. Chairman.
    The Chairman. Do you have any questions, Senator Lott?

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Mr. Chairman, no questions, just a few brief 
comments.
    First, congratulations to each of you. And we're delighted 
to have your families here. I even got a little wave from your 
daughter.
    [Laughter.]
    Senator Lott. And, you know, that--I'd be for you just 
because of her.
    [Laughter.]
    Senator Lott. But I think this is a good group of nominees. 
And I'm pleased to offer my support to all of you. And we'll 
look forward to working with you.
    All of you are in the transportation area. That's an area I 
spent a good portion of my career, particularly since I've been 
in the Senate, working on aviation issues, surface 
transportation, safety. My staff and I enjoyed working with Ms. 
Nason on the SAFETEA-LU legislation. And we--I think we 
surprised some people just how much we did get in the safety 
area. They didn't expect it of me, in particular. Maybe of you, 
but some people were surprised at my interest. My own State had 
not passed a primary seatbelt law, because, as I said on the 
floor of the Senate, if you tell us what we must do or we'll be 
punished, we will not do it; but if you tell us that we'll get 
a reward if we act responsibly, we probably will do it. And so 
it is. That's what happened.
    But also, of course, worked on the--as I said, the highway 
bill and aviation, for Amtrak, freight. I really care a lot 
about transportation. And I think it's a critical part of our 
society in America. It's a lot about who we are. We're a very 
mobile society, and we want modern means of technology, modern 
means of transportation. And I want us to continue to emphasize 
that. And so, I'm glad to see good people selected for these 
positions.
    I must say this. I don't think the Administration has paid 
enough attention to transportation issues. So, I'm saying it to 
all of you. You need to be advocates not just for the position 
that you're in and to us, you need to be advocates within the 
Administration, too. And take a look at the budget that just 
came out. I think, overall, it's a pretty good budget, but I 
think transportation, you know, is barely holding its own; and, 
only that, because of highway bill, I guess, marginally up a 
little bit, and yet we're finding other places to spend money 
that don't mean nearly as much, in terms of the economy and 
jobs, creation of jobs.
    So, I hope you'll be a very proactive group. The three of 
us, even the gentleman from--the Senator from Arkansas, are 
particularly interested in maritime. You want more bottoms, 
we'll built 'em in my hometown.
    [Laughter.]
    Senator Lott. You want more bottoms, they'll make use of 
'em in Hawaii or all the way up to Alaska. I think we need to 
pay more attention in the Maritime Administration. And I would 
predict, right now, the day will come where we're going to 
regret our neglect over the last 50 years in our--of our 
maritime industry, across the board. And, with your background, 
you've got the potential, I think, to be--become a spokesman 
and a thinker. You know, where are we, and where do we want to 
be? Has anybody asked that lately? In Washington, all we've 
done lately is to complain about the past and try to blame 
somebody. What are we going to do in the future to make sure 
that the crisis looming before us in maritime does not occur? 
We're counting on you, Mr. Sanborn, to lead on that. And if you 
have to wind up in the Oval Office convincing the President, we 
will escort you.
    [Laughter.]
    Senator Lott. So, don't be shy. Please.
    Ms. Nason, thank you very much for agreeing to do this. I 
think you're going to be good. I'm a little nervous. You're 
just so capable and attractive and so fine, got a great family, 
I just hate to throw you to the wolves, but you're willing to 
do it, so good luck. It's an----
    Ms. Nason. Thank you, Senator Lott.
    Senator Lott.--important position.
    [Laughter.]
    Senator Lott. Added to Government Affairs, like Mr.--like 
our chairman, you know, I hope you will--you know, you work a 
two-way street, and don't just occasionally give us a call to--
so we can announce some dippy little grant.
    [Laughter.]
    Senator Lott. Work with us to make sure that our concerns 
are heard and considered by the Secretary. And, of course, we 
know him, and we've worked with him, we've served with him, we 
like him. But, you know, sometimes our message needs to get 
through to him, and, more importantly, from him to the White 
House.
    I've learned that quite often these Government Affairs 
people and positions don't work for their Department. They work 
for the White House. So, if you're going to be in that 
position, if that is, in fact, a place you'll have an impact, I 
hope you'll be aggressive for the transportation point of view.
    Well, that's my lecture for the day.
    [Laughter.]
    Senator Lott. I'm just--I think we've got a good group 
here. I do take a particular interest in who goes into these 
positions, and I'm counting on really good, strong leadership 
from all of you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Pryor?
    Senator Pryor. Thank you, Mr. Chairman.
    Ms. Nason, let me start with you. In the--I guess in the 
last year or so, the Administration and the Department of 
Transportation have actually fairly actively opposed motor-
vehicle safety provisions that would require regulatory actions 
to address rollovers. And I was curious about how involved you 
were with that. Were you involved in that opposition?
    Ms. Nason. Thank you, Senator.
    NHTSA has proposed several significant rulemakings in the 
last year, as you noted. And, as the Assistant Secretary of 
Government Affairs, certainly it would be foolish for me not to 
be somewhat involved, because these issues are so important to 
Congress and your constituents. And so, I have read many of the 
comments filed in the docket. The docket is still open with 
several of these rulemakings. But I have not tried to influence 
the agency's work.
    Senator Pryor. I'm--what I want to know, more specifically, 
is your personal view of that. Should we strengthen our 
requirements for things like rollover, ejection mitigation, 
roof crush, impact projection? Should we strengthen those 
standards, or should we let them stay as they are?
    Ms. Nason. Thank you, Senator.
    Personally, I'm an enormous fan of electronic stability 
control. But if you look at the provisions of SAFETEA-LU, 
you'll see there's a very clear, comprehensive plan for the 
agency to move forward in its rulemaking. Electronic stability, 
I believe, keeps a car on the road, but, if the car does go off 
the road, you need strong door locks, you need ejection 
mitigation, you need a strong roof. These are all things that 
the agency will move out on in its rulemakings, as directed by 
Congress, to help protect American citizens.
    Senator Pryor. And will you be an advocate for that within 
the Administration?
    Ms. Nason. I will, Senator.
    Senator Pryor. Thank you.
    And, also, I notice that NHTSA has some authority over CAFE 
standards. And the other--a week ago, tonight, President Bush 
said--I believe the phrase he used is, ``America is addicted to 
oil,'' or petroleum. I can't remember the exact phrase. But do 
you have any plans to address this at all? I know that there 
have been some innovations with engine design to make them more 
energy efficient, et cetera, which is great. Totally supportive 
of that. But what about things like lighter and stronger 
materials? Are you for higher standards or keeping the status 
quo?
    Ms. Nason. Senator, as you know, there is an open 
rulemaking on CAFE for light trucks that the agency proposed 
last summer. I know, again, as the Assistant Secretary of 
Government Affairs, that this is an interest--a strong interest 
for several members. And I think this is an area where Congress 
has a significant role to play. I can commit to you that my 
goal in issuing a final rule will be to make sure that, within 
NHTSA's legal framework, we have the most efficient, and the 
safest, rule possible.
    Senator Pryor. That's great, thank you.
    And, Mr. Duvall, let me ask you, if I can turn my attention 
to you, I was reviewing the President's FY07 budget, the one 
that Senator Lott likes so much----
    [Laughter.]
    Senator Pryor.--the FY07 budget, and I have a concern 
there. I'm sure he has the same concern, but he just missed it 
when he looked. But I do have a concern there, that is, 
essential air service. I am concerned about essential air 
service. For example, we have one town in Arkansas that has 
about 12,000 people in the town. Their largest industry has 
pretty much said that one of the reasons they are there is 
because they can fly their salespeople out, and they can fly 
customers in. It's very important to them. And they've pretty 
much said, if they lose that essential air service status, they 
may move. And so, essential air service is not just a 
convenience for casual flyers, it's very important to business, 
very important to our economy. I'd like to get your thoughts on 
the fact that this budget cuts funding for essential air 
service about in half.
    Senator Lott. We plan to put it back, don't we?
    [Laughter.]
    Senator Pryor. That's what I'm getting to. That's what I'm 
getting to.
    [Laughter.]
    Mr. Duvall. Senator Pryor, thank you for the question. The 
EAS program is actually not directly within the purview of the 
policy office. I'm mainly responsible for sort of non-aviation 
policies. It's the other Assistant Secretary for Aviation. That 
said, one of my focuses, if I do get confirmed, is going to be 
to focus on rural transportation, broadly. There's no question 
that the connectivity of rural cities to some of the job growth 
areas of the United States is a critical issue for the U.S. 
economy, in all modes of transportation. So, one of the things 
I'd like to do would be to get with the Assistant Secretary for 
Aviation and International Affairs and come up with a more 
comprehensive rural transportation policy for the Department.
    Senator Pryor. And one last question for you. And thank you 
for that answer. One last question on that is--or on a slightly 
different subject--is, there's a--there have been two 
significant rulemakings that deal with truck driver hours of 
service--I don't know if you've followed that at all--and 
driver training requirements that have been, actually, thrown 
out of Federal court. And, as I understand it, I think it's a 
fair statement to say that one of the reasons they are--they 
have been thrown out of court, I should say--is because the 
agency did not follow Congressional intent. And that concerns 
me. And I was curious, have you had any involvement in those 
rulemakings at all? And what are you going to make--do to make 
sure that the trend does not continue?
    Mr. Duvall. Thank you, Senator.
    I did not have personal involvement in the development of 
the hours-of-service rule, both the 2003 and 2005. I know, in 
talking to the Administrator at the Federal Motor Carrier 
Safety Administration, that they spent enormous time and 
research on the latest science in the area of sleep 
deprivation. Obviously, it's a major safety issue, one that I 
know the Secretary has paid a lot of attention to. Our 
objective is clearly to meet the intent of Congress. We think 
that the rule that was put out at the end of last year is a 
good rule, an improvement on the 2003 one, and we want to keep 
working with Congress to make sure that rules in the--it's a 
complicated area, obviously, but I think it's one that we have 
put out a very good rule on, and I hope it has major safety 
improvements.
    Senator Pryor. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Well, Mr. Duvall, it so happens that essential air service 
started in Alaska at the time we brought about deregulation of 
the CAB, Civil Aeronautics Board. And it was necessary because 
there are some villages that can only be reached by air. 
There's no road, there's no water access. Only by air.
    Essential air service expanded to what we call the South 
48. And now the majority of the money goes to the South 48. 
Last week, I heard there's one village that has been canceled 
out of essential air service, which means it's absolutely 
stranded up there on the tundra. Now, I hope you mean what you 
said, that you're going to look at it and put some priority 
behind the rural aspects of essential air service. It was 
designed for that. It was not designed to go further than that. 
I'm sure it has acceptance elsewhere in the country, but, very 
clearly, a State like mine, where air transportation is the 
only means of transportation, it ought not to be abandoned.
    Let me state--it's obvious to all of you--you're going to 
serve with a gentleman that we all consider to be, you know, 
sort of a gift of God to the Government, that's Secretary 
Mineta. You have a wonderful person to work with. We've worked 
with him in the Congress, we've worked with him in the 
Department and other jobs. So, I commend to you one thing. And 
that is, don't ever cross him.
    [Laughter.]
    The Chairman. He's a good boss, but he's a very strong man. 
And he has to be, down there where you're all going to be.
    So, we congratulate you, and we'll have a markup as soon as 
possible. Thank you all very much.
    [Whereupon, at 3:40 p.m., the hearing was adjourned.]
                            A P P E N D I X

    Prepared Statement of Joan Claybrook, President, Public Citizen
    Thank you, Chairman Stevens, Ranking Member Inouye, Chairman Lott, 
and the Members of the Senate Commerce, Science, and Transportation 
Committee, for giving me the opportunity to submit this written 
testimony to the record. I am the President of Public Citizen, a 
national nonprofit public interest organization with 110,000 members 
nationwide. We represent consumer interests through lobbying, 
litigation, regulatory oversight, research and public education. Public 
Citizen has a long history of working to improve consumer health and 
safety, particularly in the area of automobile safety.
    As a former Administrator of the National Highway Traffic Safety 
Administration (NHTSA), I feel obliged to submit this testimony to 
raise important questions regarding the background and qualifications 
of Nicole Nason, who is nominated to serve as the next NHTSA 
Administrator.
    As the Assistant Secretary for Governmental Affairs in the U.S. 
Department of Transportation (DOT) in 2005, Ms. Nason served as the 
point person for DOT and the Administration on H.R. 3, the Safe, 
Accountable, Flexible, Efficient Transportation Equity Act, A Legacy 
for Users (SAFETEA-LU). Both DOT and the Administration opposed a 
number of critically important motor vehicle safety provisions in that 
bill, such as requirements for new roof strength, rollover propensity, 
side impact, and ejection mitigation standards. These provisions were 
adopted with bipartisan and bicameral support as a result of the 
leadership of Senators Stevens, Lott, and Inouye, with specific 
statutory timelines for implementation.
    One of the most pressing and primary responsibilities of the next 
NHTSA Administrator will be implementing the law and issuing motor 
vehicle safety standards to save lives and prevent disabling injuries. 
As NHTSA Administrator, Ms. Nason will have significant discretion to 
implement the legislation in either a robust or de minimus manner. I 
have serious concerns that one of the chief Administration liaisons to 
the Congress, which opposed the legislation, would now be charged with 
leading the effort implementing these rules, which have the potential 
to save thousands of lives.
    Ms. Nason's stated priorities for NHTSA reflect a very narrow view 
of the agency's responsibilities under the law to ensure the safety of 
Americans on our roadways. In her written response to the Committee's 
questions concerning her anticipated areas of focus, she acknowledged 
that Congress provided some ``noteworthy'' tools to improve safety in 
SAFETEA-LU, but specifically mentioned only the safety belt performance 
and the alcohol-impaired driving countermeasures grants. Other of her 
answers also emphasized increasing safety belt use and improving the 
safety of teen driving as key areas.
    While Public Citizen strongly supports provisions concerning 
Federal incentives to increase seat belt use, reduce impaired driving 
and promote child booster seat laws, I am deeply concerned that there 
is no mention in her responses regarding her primary goals of SAFETEA-
LU's vehicle safety mandates to improve roof strength, rollover 
prevention, ejection, side-impact protection and power window safety. 
Rollovers kill more than 10,000 people every year and side-impact 
crashes kill 9,000. These two categories of crashes alone comprise a 
shocking two-thirds of all occupant deaths, begging the question of why 
she chose only to mention belt use and alcohol.
    Her responses in this regard bear out our grave concerns. The 
possible safety advances that NHTSA could make will fall far short of 
their potential if Ms. Nason prioritizes and promotes only behavioral 
change efforts at NHTSA, as she appears poised to attempt to do.
    I also have serious concerns about Ms. Nason's lack of any 
experience related to NHTSA's mission, which is to ``save lives, 
prevent injuries and reduce economic costs due to road traffic crashes, 
through education, research, safety standards and enforcement 
activity.'' Ms. Nason appears to have no professional experience in 
traffic, traffic safety, or injury prevention. While she has stated her 
personal commitment to highway safety, that does not make her qualified 
to lead and manage a Federal agency with a budget of $800 million and 
more than 500 employees devoted to researching, innovating, issuing 
rules and enforcing laws to prevent tens of thousands of deaths and 
millions of injuries on the Nation's highways. While past NHTSA 
administrators have had a wide variety of qualifications for the job, 
most had a significant number of years of professional experience. Most 
also had substantial managerial experience.
    I raise these issues to encourage the Committee to exercise close 
oversight of the agency's forthcoming work and implementation of 
SAFETEA-LU. Too many lives are at stake to take the nomination any less 
seriously.
    I also commit to working cooperatively with Ms. Nason and this 
Committee to encourage attention to these sorely needed improvements in 
vehicle safety. I deeply appreciate the opportunity to submit this 
written testimony.
                                 ______
                                 
                 House Committee on International Relations
                                   Washington, DC, February 6, 2006
Hon. Ted Stevens,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Mr. Chairman:

    I write to wholeheartedly support the President's nomination of 
Nicole Nason to be the Administrator of the National Highway Traffic 
Safety Administration.
    Ms. Nason worked on the staff of the House Committee on the 
Judiciary when I was the Chairman of that Committee. She began her 
tenure with the Committee as a legal intern. The excellence of her work 
and people skills was so extraordinary that she was offered a full time 
position as Counsel to the Crime Subcommittee after she completed law 
school. At the time Ms. Nason began her position, the Subcommittee 
found itself extremely busy with major anti-crime legislation. Ms. 
Nason's contribution to the work of the Subcommittee was substantial. 
She quickly learned the nuances of the legal issues, as well as the 
practical aspects of all that needs to be done to ensure important 
legislation is effective and properly crafted.
    I was so impressed with her work as counsel to the Subcommittee 
that I asked her to become Counsel to the Full Committee. In that 
capacity, she continued to grow both as an attorney and as an 
exceptional member of the Committee staff. Any organization would be 
well served to have her.
    During her tenure as Assistant Secretary of Transportation, a 
position for which I also supported her, Ms. Nason has had to deal with 
a number of incredibly complex and difficult issues. She has 
demonstrated once again her exemplary ability to work with Members of 
Congress and the full range of people involved in the myriad of issues 
before the Department in order to accomplish what needs to be done.
    I have no doubt whatsoever that the President and the American 
people will be well served should your Committee confirm Ms. Nason's 
nomination as Administrator of the National Highway Traffic Safety 
Administration.
    Thank you for this opportunity to share my thoughts with you on 
this outstanding candidate.
        Sincerely,
                                             Henry J. Hyde,
                                                          Chairman.
                                 ______
                                 
      Congressional and Public Affairs, Chamber of Commerce
                                   Washington, DC, January 25, 2006
Hon. Daniel K. Inouye,
Co-Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Co-Chairman Inouye:

    On behalf of the U.S. Chamber of Commerce, the world's largest 
business federation representing more than three million businesses and 
organizations of every size, sector, and region, I am writing to 
express our strong support for President Bush's nomination of Robert C. 
Cresanti for the position of Undersecretary of Commerce for Technology.
    This nomination recognizes the unique aspects of this important 
position within the Federal Government. The Undersecretary must be a 
capable person with a clear perception and understanding of both the 
government's operations and the technology industry, which is a key 
engine of growth for the U.S. economy.
    Mr. Cresanti has been a ground-breaking leader in the technology 
industry for many years, in both the public and private sectors. He 
currently serves as Vice President of Public Policy at the Business 
Software Alliance. Prior to that, he was the Senior Vice President and 
General Counsel for the Information Technology Association of America. 
Earlier in his career, Mr. Cresanti spent nearly 10 years as a public 
servant. Among his many public sector experiences, he served as the 
Staff Director for the Subcommittees on Financial Institutions and 
Financial Services and Technology for the Senate Banking Committee and 
later as Staff Director for the Senate Special Committee on the Year 
2000 Technology Problem.
    Mr. Cresanti possesses the necessary strengths to effectively lead 
the Department of Commerce's Technology Administration and work with 
the private sector on important issues including technology standards 
and security development. The U.S. Chamber strongly urges your support 
of Mr. Cresanti as Undersecretary of Commerce for Technology.
        Sincerely,
                                    Rolf Th. Lundberg, Jr.,
                                             Senior Vice President.
                                 ______
                                 
                                               RSA Security
                                                   February 7, 2006
Hon. Ted Stevens,
Chairman,
Senate Committee on Commerce, Science, and Transportation
Washington, DC.

Hon. Daniel K. Inouye,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation
Washington, DC.

Dear Chairman Stevens and Ranking Member Inouye:

    I am writing you to express my strong support for the nomination of 
Robert Cresanti to the post of Under Secretary for Technology, 
Technology Administration at the U.S. Department of Commerce. Mr. 
Cresanti is the perfect nominee for this important position and I urge 
the Senate to confirm him as soon as possible.
    I have had the pleasure of working with Mr. Cresanti during his 
years working in the technology industry and I find him a good leader, 
a man of unimpeachable integrity, and someone who is dedicated to 
preserving and expanding the United States' position as the leader in 
technology innovation. Mr. Cresanti will be a tireless advocate for 
U.S. technology leadership in his new role and he understands the 
critical role of technology standards and research and development in 
continuing America's position as the world's hub of technology 
innovation.
    I am very pleased today to lend my support and encouragement for 
the Committee to confirm Mr. Cresanti as Under Secretary for 
Technology.
        Sincerely,
                                   Arthur W. Coviello, Jr.,
                                                 President and CEO.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                            Robert Cresanti
    Question 1. Technology and the Ocean. NOAA and its scientific and 
technical partners are in the forefront of dealing with challenges we 
face this century from climate change and invasive species to exploring 
extreme environments and discovering marine pharmaceuticals and other 
beneficial compounds. Yet in all of the discussion of competitiveness 
and innovation, we rarely hear about this vital agency.
    As the Secretary's chief advisor on technology, how will you bring 
NOAA and its research into the larger discussion about staying 
competitive and fostering innovation?
    Answer. The Competitiveness Initiative, and the new investments in 
physical sciences and engineering, will ensure our continued economic 
and technological leadership around the world. NOAA, with a strong 
operational and applied science mission, will benefit directly from the 
advances in the fundamental physical science anticipated under the 
President's American Competitiveness Initiative. That is important to 
NOAA, and is a key element in the cross-cutting way NOAA conducts and 
leverages the Federal research and development enterprise. The 
President's Ocean Action Plan includes funding for the ocean observing 
system, among other programs, and is evidence of strong government-wide 
support for ocean science research. If confirmed as Under Secretary, I 
will work with the Department and appropriate agencies to ensure that 
NOAA research continues to address these challenging issues.

    Question 2. Hollings Manufacturing Extension Partnership Program. 
Knowing that you were not working within the Technology Administration 
when the FY 2007 budget was developed, I understand that you may not 
have knowledge of the logic that was used to develop the request to cut 
the Hollings Manufacturing Extension Partnership program by nearly 56 
percent. However, if confirmed, you will be charged to carry out the 
priorities of the Administration. In the State of the Union, the 
President identified competitiveness as a priority in the coming year.
    How will you work with your superiors and the White House to help 
convince them to provide full funding at a minimum of $106 million for 
the MEP program in future years?
    Answer. One of the roles of the Under Secretary for Technology is 
to serve as one of the principal officials responsible for the 
Administration's technology policy, developing and promoting national 
policies and initiatives that takes into account technology's role in 
building America's economic strength. If confirmed as Under Secretary, 
I will be fully engaged in policy and budget deliberations involving 
technology issues within the Department of Commerce.

    Question 3. MEP and FACA. I assume that as Vice President of Public 
Policy at the Business Software Alliance, your organization valued the 
input received from its members and customers. Like you, I agree that 
advice and counsel of an organization's stakeholders can improve its 
performance and strategy into the future.
    With this understanding, can you acknowledge and agree that former 
programmatic customers make the best, most informed advisors? Can you 
then ensure me that when you become Undersecretary for the Technology 
Administration you will uphold FACA regulations with regard to the MEP 
National Advisory Board which has not held a meeting since May 2004?
    Answer. I agree that any organization should listen to its 
customers to ensure that its strategic and programmatic direction is 
delivering the most appropriate goods or services. If confirmed as 
Under Secretary, I will uphold FACA regulations as they apply to the 
MEP National Advisory Board.

    Question 4. Outsourcing Report. In September 2005, the Technology 
Administration released a twelve page report entitled ``Six-Month 
Assessment of Workforce Globalization In Certain Knowledge-Based 
Industries.'' The report was requested by Congress in December 2003, 
and bore a date of July 2004 but was not released until September 2005. 
According to media reports, political appointees and the White House 
delayed the release of the report and substantially edited the content 
of the report.

  <bullet> Do you believe that this is an acceptable way to operate the 
        Technology Administration?

  <bullet> How will you ensure that the reports of your technology 
        analysts can be released without being altered due to political 
        pressure?

  <bullet> This report and other Administration officials have argued 
        that, on the whole, outsourcing has a positive impact on the 
        United States economy. What is your assessment? Is outsourcing 
        a problem or an opportunity?

    Answer. I am not in a position to conclude or confirm the 
allegations made in media reports surrounding the release of the 
report. While I have no reason to believe that the assessment was 
``altered due to political pressure,'' you can be assured that as Under 
Secretary for Technology, I will maintain the integrity of the 
Technology Administration in all work products. My personal view is 
that the integrity of all reports and conduct must be an integral part 
of the overall mission of TA or any other organization with which I am 
connected. With all of its reports, TA should strive for accurate data, 
reliable sources, and written in a thorough and objective manner. All 
reports will be properly vetted and reviewed through the Department's 
normal clearance process to ensure the high quality that is expected. 
The objective must be to produce a quality report and to identify the 
steps necessary to ensure a comprehensive and exhaustive analysis.
    The globalization of the U.S. workforce is an issue that is 
important for policymakers, and industry to better understand--though 
the complexity of the issue and lack of definitive data does not lend 
itself to simple assessments. The trends and collection of data 
inherent in this issue are ripe for review. There are also a number of 
non-governmental organizations, including the National Academy of 
Public Administration, currently reviewing the issue as well. It is 
hoped that their analyses will add to the substance of the debate and 
allow for greater clarity in this issue.

    Question 5. Technology Administration. According to the Department 
of Commerce budget documents, the Office of the Under Secretary for 
Technology will consist of 5 full time equivalent employees in FY 2007, 
down from 20 in FY 2006. I presume that you will be one of those and 
that the current deputy assistant secretary, Dan Caprio, will be 
another of those. As I understand it, there are two open political 
appointments, the deputy Under Secretary and the Assistant Secretary.

  <bullet> How many of the five positions will be filled by political 
        appointees?

  <bullet> What do you expect the office to look like? Who will conduct 
        the analyses and write the reports that the Under Secretary's 
        office is responsible for?

    Answer. As I have not been involved with the day-to-day operation 
of TA at this point, if confirmed, I will review the required work that 
is currently assigned to TA and make sure that the appropriate 
personnel is identified to fulfill TA's mission.

    Question 6. Relationship with NIST. As you know, NIST has largely 
operated independently, exercising its scientific judgment and 
supporting world-class science. On the other hand, the Technology 
Administration has been more susceptible to political pressures. The 
Under Secretary for Technology has largely kept out of NIST affairs, 
allowing the Director to operate NIST and its labs.
    Do you expect this tradition to continue? What do you believe your 
role is with respect to NIST? How do proposed reductions within your 
office affect that?
    Answer. Yes, if confirmed, I plan to work closely with NIST. I have 
learned that NIST has a strong history of scientific independence and 
high productivity. The current NIST Director, who has been confirmed by 
the Senate, has the responsibility for running NIST on a day-to-day 
basis and ensuring that it remains in a position in which it exercises 
independent and sound scientific judgment. I intend to serve as a 
strong supporter of the NIST Director in that regard. My responsibility 
will be one of oversight, since the agency is one of three business 
units that report through the Office of the Under Secretary. The 
proposed budget reductions within TA's Office of the Under Secretary 
will not impact my enthusiasm for NIST nor my ability to tirelessly 
promote its mission and importance.

    Question 7. Areas of Technology. You are nominated to be the 
Secretary of Commerce's chief advisor on technology. Technology and 
scientific research are said to underlie our economic competitiveness.

  <bullet> Looking out about five or ten years, what do you see as the 
        most important technologies on the horizon? What challenges or 
        opportunities will they pose for the Nation?

  <bullet> As Under Secretary for Technology, what role will you play 
        in helping the Nation address these challenges and 
        opportunities?

    Answer. In my estimation, four primary areas of development will 
affect America's technological leadership in the next 5 to 10 years. 
First, standards issues will significantly affect our companies' 
ability to compete internationally and NIST is the expert in navigating 
these types of standards issues. For example, nations may attempt to 
require mandated technology standards to sell products in their 
markets. These standards may well serve as non-tariff trade barriers. 
We need to ensure that the United States vigorously advocates for 
globally relevant standards that are developed in an open, consensus-
driven process, and are performance-based.
    Second, looking forward, nanotechnology has to be a priority for 
our attention. There is a worldwide race underway to seize the 
leadership in nanotechnology development; the United States must win 
this competition. Working with industry leaders to produce a climate 
that encourages these companies to locate and create their products in 
the United States is essential.
    Third, biotechnology is a centerpiece of U.S. competitiveness and 
it will nurture many related industries with productivity through 
applied innovation. For example, some experts estimate that over 100 
million people have already been helped directly by biotechnology, 
through developments like so-called super crops that feed the world's 
hungry. Others predict the development of innovations like edible 
vaccines and cancer-fighting foods. One consulting firm specializing in 
biotechnology estimates that by 2011 there will be 400,000 people 
employed by biotech companies and another 350,000 in related 
businesses; we need as many of those jobs located in the United States 
as possible.
    Finally, the issue of data breach and privacy is beginning to 
become acute. Educating American corporations and consumers about good 
security practices and affording customers appropriate privacy 
protections is essential and TA can have a salutary effect on raising 
and addressing these issues in our market. These issues directly affect 
the conduct of Internet commerce. Electronic Commerce accounts for a 
substantial part of our annual business transactions every year, both 
on a business to business and a business to consumer basis. A potential 
lack of faith by consumers in electronic commerce would damage the cost 
structure and savings enjoyed by many companies today.
    The challenges we have to overcome will be many. We must remain 
vigilant to make sure that we are armed with the tools to be 
competitive, as a nation, in order to secure a leadership position in 
the development and deployment of these new technologies. That means 
providing a strong infrastructure, including deep stable capital 
markets, with a strong venture capital market; a well educated and well 
trained workforce; strong investment by our private sector companies, 
coupled with a commitment by the Federal Government to support basic 
research and development to feed into the innovation pipeline for 
companies to capitalize upon; and an active engagement in removing 
barriers to government and university technology transfer into our 
economy.

    Question 8. Cybersecurity. In your last position, you served as 
Vice President of Public Policy at the Business Software Alliance, 
which deals primarily with software piracy and protecting intellectual 
property.

  <bullet> What more can the United States Government do to protect 
        intellectual property and eliminate software piracy?

  <bullet> More broadly, cybersecurity is a problem that does not get 
        much attention from this Administration. Given that software 
        affects more and more of our daily life, can you offer any 
        insight into why computer security doesn't receive greater 
        attention? [Follow up: if yes, ``What do you propose to do 
        about promoting cybersecurity in this Administration? '']

  <bullet> When the Department of Homeland Security was created, 
        industry lobbied successfully for one agency not to join the 
        new Department, the Computer Security Division at NIST. In your 
        estimation, does the Computer Security Division have the 
        resources and leverage to do its job?

    Answer. The Federal Government has done more in the last few years 
than it has ever done before, and the number of seizures in the United 
States of fraudulent goods has increased. The Department of Commerce, 
in particular, has elevated this issue within the country and globally. 
The Secretary of Commerce has placed an individual in charge of 
ensuring the enforcement of U.S. intellectual property rights around 
the world and the U.S. Patent and Trademark Office is embarking on a 
campaign to increase the awareness of America's youth to the importance 
of protecting intellectual property. In addition, the Secretary and 
other senior officials are holding our trading partners around the 
world responsible for protecting intellectual property and ending 
piracy.
    The Administration has a strong history of supporting cybersecurity 
issues. The Administration wrote the National Strategy to Secure 
Cyberspace which is part of the overall effort to protect the country. 
It is an implementing component of the National Strategy for Homeland 
Security and is complemented by a National Strategy for the Physical 
Protection of Critical Infrastructures and Key Assets. The purpose of 
the Cyberspace document is to engage and empower Americans to secure 
the portions of cyberspace that they own, operate, control, or with 
which they interact. As you know, securing cyberspace is a difficult 
strategic challenge that requires coordinated and focused effort from 
our entire society, the Federal Government, state and local 
governments, the private sector, and the American people. Since 
cybersecurity has always been a principal interest of mine, if 
confirmed, I plan to seek out opportunities to work with the Department 
of Homeland Security and others to engage in further policy activities 
on this issue, particularly as it relates to the topics of data breach 
and information privacy.
    As I have only been briefed on the ``big picture'' aspects of the 
NIST budget, I cannot offer an opinion on the appropriateness of the 
Computer Security Division budget. If confirmed, I would rely on the 
Director of NIST and his team of managers to make recommendations on 
the appropriate level of resources required for NIST's programs.

    Question 9. Advanced Technology Program. The authorizing 
legislation for the Advanced Technology Program (ATP) states that ATP 
should focus on ``improving the competitive position of the United 
States and its businesses, give preference to discoveries and to 
technologies that have great economic potential, and avoid providing 
undue advantage to specific companies.''
    The Administration has once again called for the elimination of 
ATP.
    On the same day, February 6, 2006, the National Aeronautics and 
Space Administration (NASA) announced a request for information for a 
new, NASA-supported venture capital fund `Red Planet Capital.'' 
According to NASA, the fund ``will be an investment vehicle used to 
support innovative, dual-use technologies which will help NASA achieve 
its mission, but will also help better position these technologies for 
future commercial use.'' The fund will have investment and operation 
funds of $11 million in FY 2006, growing to $20 million annually 
thereafter.
    Since 1990, the Advanced Technology program has amassed an 
admirable record of achievement. It has been reviewed favorably by the 
National Academies of Sciences. Its latest annual report projected $17 
billion in benefits from just 41 of 236 completed projects; these 
benefits would pay for the program eight times over. NASA, on the other 
hand, has no proven track record in this area.
    In the past, when we have asked representatives of the 
Administration, why not invest in ATP, the answer has been a lack of 
resources. Yet, the President, through his Competitiveness Initiative 
has said he believes in NIST and, clearly, the government believes in 
innovative programs to invest in high-risk technology.

  <bullet> Why is this funding better spent for NASA to develop a 
        program that NIST has been doing for 15 years?

  <bullet> Will you encourage NIST to remind its sister agency that ATP 
        can accept funds from other agencies and run competitions 
        focused on areas of technology relevant to the investing 
        agency?

  <bullet> Will you find a way for NIST to work with industry to 
        continue its successes in helping bridge the ``valley of 
        death'' that keeps basic research from being commercialized?

    Answer. I have no knowledge of the NASA program; therefore, I 
believe it would not be appropriate for me to speculate about the 
funding of the proposed NASA program as compared to the NIST program.
    My understanding is the FY 2007 budget reflects the 
Administration's policy and funding priorities to address the Nation's 
most pressing needs. As such, the Administration has decided to place a 
higher priority on funding NIST's laboratory core programs--which 
impact entire industries--over new funding for the Advanced Technology 
Program, which supports individual projects and companies. The FY 2007 
request for NIST continues the orderly ATP phase-out that was initiated 
with the FY 2006 appropriation. Accepting other agency funding would be 
inconsistent with the proposed budget.
    I believe that NIST plays a vital role in the basic research that 
supports American innovators. NIST's mission is ``to promote U.S. 
innovation and industrial competitiveness by advancing measurement 
science, standards, and technology in ways that enhance economic 
security and improve the quality of life.'' The President also believes 
strongly in NIST's mission and has made it part of his American 
Competitiveness Initiative. The President's American Competitiveness 
Initiative represents a 24 percent increase over similar FY 2006 
appropriated funding. Enactment of the President's American 
Competitiveness Initiative will help companies take research from the 
labs to the marketplace.

    Question 10. Technology Transfer. The Technology Administration has 
been the locus and intellectual engine for analyses of and improvements 
to our technology transfer policies and performance.

  <bullet> What can the United States Government be doing to get its 
        prize-winning basic science out of the lab and into commercial 
        products?

  <bullet> Will you have adequate resources in a 5-person Technology 
        Administration office to continue work on this and other 
        important technology policy questions?

    Answer. As you may know, TA chairs the longstanding Interagency 
Working Group on Technology Transfer, which regularly brings together 
senior technology transfer personnel from most of the Federal agencies 
with science and technology programs, to discuss Federal technology 
transfer practices, issues, and policies. TA is the prime mover in 
preparing the annual performance reports on Federal laboratory 
technology transfer, under the Technology Transfer Commercialization 
Act of 2000, which are regularly submitted to the President, Congress, 
and OMB. TA has some responsibilities for administering the 
intellectual property and technology transfer laws that apply to 
inventions by Federal employees. And, TA has a strong interest in 
remaining abreast of new development and trends in the Federal 
technology transfer field and advising the Administration and Congress 
on associated issues that may need attention.
    There are a number of operational areas where further attention may 
well yield significant benefits in the form of a faster, more effective 
national technology transfer system. In fact, a recent President's 
Council of Advisors on Science and Technology (PCAST) report identified 
nine recommendations, including:

        --Better dissemination of best practices across the technology 
        transfer practitioner community;

        --More attention to ``process'' improvements which could help 
        reduce the complexity and time required to complete technology 
        transfer transactions;

        --Improved education and training opportunities for science and 
        technology personnel;

        --Development of better information tools for industry to more 
        quickly and efficiently search for partnership and new 
        technology opportunities across the federally-funded R&D 
        domain; and

        --Careful consideration of the implications for U.S. technology 
        transfer policies from globalizing R&D chains and new emerging 
        technologies.

    Given its knowledge of the topic and connection to the community, 
TA can play a key leadership role in organizing this process, 
encouraging discussion of the important issues, and securing sound 
findings and action recommendations.
    With the proposed reduction in the Technology Administration's 
resources, I will streamline the operations and focus on the most 
important technology policy issues. Technology transfer is an important 
issue, written into TA's statute, and will remain a high priority for 
TA.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jim DeMint to 
                            Nicole R. Nason
    Question 1. I understand that the motor vehicle supplier industry 
has developed a number of new technologies with the goal of making 
motor vehicles safer. Technologies such as lane departure warning 
systems, backover avoidance systems, active cruise control and vision 
warning systems are just a few of the technologies that are now 
commercially available which go beyond traditional passive safety 
devices and will help prevent accidents from happening in the first 
place. What research is NHTSA undertaking to determine the 
effectiveness of these technologies? What steps will you take as NHTSA 
works toward Secretary Mineta's goal of decreasing the total number of 
fatalities to 1.0 per one-hundred million miles driven by the end of 
2008? What research has NHTSA already conducted to determine the 
effectiveness of the crash avoidance technologies that are now on the 
market?
    Answer. I believe that there are numerous technologies available 
today, such as those listed above, that can greatly benefit American 
drivers. I am aware that NHTSA issued a Federal Register Notice in July 
2005, seeking information on its new Advanced Crash Avoidance 
Technologies Program initiative. If I am confirmed as Administrator, 
this is an initiative that I will focus on carefully. I will work to 
ensure that this program is robust and useful for consumers because I 
believe that new safety technologies will play a significant role in 
reducing fatalities on our Nation's roads. The Secretary's goal of 1.0 
is a challenging one, and if confirmed, I intend to focus on those 
areas where I believe we can achieve the greatest gains, such as 
reducing teen and alcohol-related driving fatalities and increasing 
safety belt use. In the long term, I believe several of the new 
rulemakings required by SAFETEA-LU can greatly benefit in the reduction 
of fatalities. One such rulemaking is the electronic stability control 
rule, which is a technology that the agency already has begun to study 
to determine its effectiveness.

    Question 2. NHTSA's Advanced Crash Avoidance Technologies (ACAT) 
Initiative. In the summer of 2005, NHTSA announced the creation of a 
new government-industry program deemed the Advanced Crash Avoidance 
Technologies Initiative. This program is designed to allow NHTSA and 
the automotive industry to share valuable data and testing methodology 
information relative to these new advanced safety technologies. Can you 
please explain the intended participant makeup for this program? Do you 
intend to allocate an equal place at the table for automotive parts 
manufacturers (automotive suppliers)? I understand that some of the 
relevant submissions to the NHTSA docket have suggested that the 
program should be more tightly focused to include only NHTSA and the 
vehicle manufacturers. Do you agree that it would be a mistake to 
exclude auto parts companies from this important initiative, especially 
as they are the ones who carry out much of the R&D work within the 
industry and who actually design and manufacture these advanced crash 
avoidance systems such as Lane Departure Warning Systems, Collision 
Avoidance Systems, Night Vision, etc.?
    Answer. If confirmed as Administrator, I would like to see every 
group who has an interest in the Advanced Crash Avoidance Technologies 
initiative be included. Since auto parts suppliers play a significant 
role in the development of the technology, I will ensure that their 
concerns are heard by the agency.

    Question 3. Consumer Information on Tire Pressure Monitoring 
Systems (TPMS). As you are aware, Congress directed NHTSA to conduct a 
rulemaking to require the installation of Tire Pressure Monitoring 
Systems (TPMS) technology in all passenger cars and light duty trucks 
through the TREAD Act, enacted in 2000. TPMS technology continually 
monitors a vehicle's tire pressure and alerts drivers when a tire is 
notably under-inflated. These systems serve a significant safety role 
in that improper tire pressure can contribute to tire failure, tread 
separation or blowout, and flat tires. I understand that this 
government mandated safety regulation was released in April 2005 and 
commenced its multi-year phase in period in late 2005. As this is a new 
government-mandated technology and one which does not yet enjoy 
widespread consumer awareness and understanding, does NHTSA intend to 
conduct some type of Consumer Information or Education Campaign in 
support of its mandate?
    Has NHTSA considered a campaign or effort that would assist drivers 
in understanding these new systems, their intent, and the valuable 
safety information that they provide? It seems clear that consumer 
awareness and understanding of the technology remain critical, 
especially as the systems are complex and will not be required to work 
with all replacement or aftermarket tires. In order to achieve the full 
safety benefits of TPMS, the driver must understand correct driving 
behavior and be able to interact properly with the system. Is it 
correct that NHTSA will only require that information on TPMS be placed 
in the driver's manual? What other avenues could be used to help 
consumers to better understand these new systems and the warning 
indicators that will be placed on the dashboard--a special brochure to 
be distributed at dealerships, a Public Service Announcement, a TPMS 
consumer notice or information page on the NHTSA website? Please 
elaborate on the agency's intent in this area.
    Answer. It is my understanding that NHTSA currently requires 
manufacturers to provide information regarding Tire Pressure Monitoring 
Systems (TPMS) in the owner's manual. If confirmed, I would be open to 
considering other avenues of communication with consumers. My goal 
would be to ensure that consumers have several possible opportunities 
to learn about and better understand this new system, including, for 
example, the agency's website.

    Question 4. Study on Backover Avoidance Systems. Through the 
SAFETEA-LU bill (Highway Bill--H.R. 3) enacted in 2005, NHTSA was 
directed to conduct a study on backover avoidance technologies and to 
provide an estimate of cost savings that would result from widespread 
use of backover prevention devices. KIDS AND CARS, a child safety 
advocacy group, maintains a national database tracking deaths and 
injuries to children left unattended in or around motor vehicles and 
they reported an estimated 213 child fatalities in 2005. What level of 
priority has NHTSA assigned to this project? What is the status of the 
study itself? Has NHTSA begun to collect nontraffic, noncrash incident 
data? If so, by what means are you finding and validating this 
information?
    Answer. If confirmed as Administrator, my priority will be to try 
to meet all of the deadlines for rulemakings and reports in SAFETEA-LU. 
Under Section 10304 of that legislation, the agency is required to 
conduct a study of effective methods for reducing the incidence of 
injury and death outside of parked passenger motor vehicles. The agency 
is required to report to the Congress by November 2006. I am aware that 
NHTSA has begun working on this study and on the additional requirement 
for establishing a method for collecting non-traffic incident data. 
They are currently evaluating cost-effective ways to collect data on 
backover incidents, as well as other noncrash incident data. If 
confirmed, I will make sure that this report is a priority for the 
agency.

    Question 5. The TREAD Act that was enacted in 2000 required NHTSA 
to promulgate a number of important safety regulations. One of these 
was the Early Warning Reporting System that mandates tire manufacturers 
and others to report information to the agency about fatalities, 
injuries and property damage claims involving those industry's 
products.
    The regulation requires that all tire manufacturers who sell 
products in the U.S. to comply with this regulation. Over the past few 
years, tire imports to the U.S. have increased and a number of tire 
manufacturers of these imports have no U.S. manufacturing presence. 
NHTSA must do everything possible to ensure that the manufacturers and, 
in some cases, the importers of these tires are complying with the 
reporting requirements of the TREAD Act's Early Warning Reporting 
System. Companies required to report that fail to do so could put 
consumers at risk by denying NHTSA important product performance and 
safety information. Furthermore, companies that fail to comply are at a 
competitive advantage versus those who have invested the resources 
necessary for compliance.
    The U.S. Customs Service has access to confidential import data 
that can determine what country of origin and type of product enters 
our Nation. NHTSA receives confidential information from companies on 
fatalities, injuries and property damage claims. If a company fails to 
file under the early warning system, NHTSA may not know that company 
exists. Customs Service data may be able to fill any gaps missing from 
the NHTSA early warning information.
    Do you believe there could be more coordination between NHTSA and 
Customs to ensure that all tire companies required to report data under 
the Early Warning Reporting System are doing so?
    Answer. I believe that NHTSA should do everything possible to 
ensure that manufacturers and tire importers are in compliance with the 
provisions of the TREAD Act. As you may know, I was a former senior 
official at the U.S. Customs Service, serving as the Assistant 
Commissioner from January 2002 until March 2003. If confirmed as 
Administrator, I would be pleased to reach out to my former colleagues 
and explore what options may be available for sharing information 
related to tire importation.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            David C. Sanborn
    Question 1. As you know, the Jones Act requires vessels carrying 
cargo within the United States to be built in the United States, 
documented and regulated under United States law, and owned by U.S. 
citizens. In addition, the Jones Act requires that all officers and 75 
percent of the crew must be U.S. citizens.
    What are your views regarding the Jones Act and related cabotage 
laws?
    Answer. Senator, I support the Jones Act completely, and the 
cabotage laws as they are legislated.

    Question 2. The United States Maritime Administration (MARAD) is 
currently promoting short sea shipping as a means of transporting 
freight throughout the United States and North America. Defined as 
commercial waterborne transportation that does not transit an ocean, 
short sea shipping uses inland and coastal waterways to move freight. 
It has been the Bush Administration's longstanding policy that Short 
Sea Shipping should be implemented in a manner consistent with the 
Jones Act and other cabotage laws.
    Do you support this policy?
    Answer. Senator, I support development and expansion of a short sea 
shipping policy in the United States. I do agree that this should be 
developed under the umbrella of the Jones Act and cabotage laws as they 
exist today.

    Question 3. Are there any reasons why those who support the Jones 
Act should be concerned about your appointment as U.S. Maritime 
Administrator?
    Answer. Senator, I support the Jones Act. If I am confirmed as 
Maritime Administrator I will continue to support it and use it to try 
and grow our Merchant Marine. I see no reason that this position would 
run counter to other supporters of the Jones Act.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                            Tyler D. Duvall
    Question 1. In the Motor Carrier Safety title of SAFETEA-LU, a 
provision (section 4142) was inserted by the Conferees providing the 
Secretary with an opportunity to review transportation broker 
registration requirements. It has been reported that DOT may use this 
authority to exempt all brokers, other than household goods brokers, 
from registering without a careful review of the impacts of a blanket 
exemption through a formal regulatory proceeding.
    As Assistant Secretary, what would your position on this issue be? 
Are you aware that both shippers and carriers that use brokers believe 
that DOT registration is an important commercial safeguard? Does the 
Department continue to stand by the assertion made in the supporting 
documentation accompanying section 4007 of the DOT's original SAFETEA 
proposal stating that this is ``an issue for the Secretary to consider 
through notice and comment rulemaking?''
    Answer. I am aware that carriers that use brokers believe that DOT 
registration is an important requirement. I have not discussed the 
matter with any shippers.
    I am not aware of the supporting documentation referred to in the 
question. Now that SAFETEA-LU is law, I would expect that the General 
Counsel will find that interpretation of the existing statutory 
language is the most important consideration.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                            David C. Sanborn
    Question 1. U.S.-flag cargo preference laws for U.S. Government-
impelled cargoes provide an essential base of cargo for the U.S. 
Merchant Marine. Cargo preference enables vessels to remain under the 
U.S. flag and thus available with vessels and crews for national 
defense sealift. In the past, the emergency contingency provision to 
our cargo preference laws have been used to justify shipping cargo via 
foreign flag, even when U.S. flag vessels are available and ready to 
transport at competitive rates. This has been particularly prevalent 
for U.S. food aid shipments. Furthermore, contractors and U.S. 
Government contracting officers are often not even aware that U.S. flag 
preference applies.
    What will you do, as Maritime Administrator, to strengthen 
compliance with and oversight of cargo preference? Should MARAD's 
authority be strengthened in cargo preference compliance and oversight? 
Would you support legislation or interagency memorandum of 
understanding to clarify policies with respect to so-called ``emergency 
shipments?''
    Answer. Senator, firstly I want to say that I support mandated 
cargo preference laws, as currently legislated. I am not specifically 
familiar with instances where flag impelled cargo has shipped aboard 
foreign flag vessel when U.S. flag vessels were available. I would like 
to have the chance to investigate the details more fully. I do believe 
it is the accountability of the Maritime Administration to ensure that 
this does not happen. If I am confirmed as the Maritime Administrator I 
would work to ensure that MARAD is corresponding openly and proactively 
with the contractors and government contracting officers to ensure that 
when such cargo is available it is shipped on board U.S. Flag vessels, 
exclusively, if the vessels are available. I support all appropriate 
steps to strengthen the role of MARAD in compliance and oversight of 
cargo preference. I would also work to clarify policies both internally 
and with other agencies with respect to policing the process of 
decisions to allow for ``emergency shipments'', and ensure that they 
are granted only where appropriate.

    Question 2. I see from your resume that you have considerable 
experience in shipping logistics and port operations. How will you 
utilize your expertise to administer programs for the Maritime 
Administration? What role do you see for the Maritime Administration in 
formulating the Department's freight policy?
    Answer. Senator, this area is of particular concern to me, and one 
that needs immediate prioritization. If I am allowed to take on the 
role of Maritime Administrator I would, firstly, examine how we are 
organized within the agency to provide technical support and assistance 
to all entities within the cargo supply chain. My intention would be to 
make appropriate changes so that we can be a ready access for support 
to our customers--government and commercial. Secondly, I would use the 
contacts I have been able to establish as a leader within the industry 
to pull together the senior level personnel from terminal operating 
companies, liner shipping companies, railroads, organized labor, and 
other components of intermodal cargo operations to begin a thorough 
dialogue on what we can do, together, to determine specific steps on 
how we are going to make our intermodal cargo movement smoother and 
more capable of handling the increasing volumes of cargo we are going 
to be seeing starting almost immediately.
    I see MARAD as one of the most critical agencies in ensuring that 
our capabilities for moving freight match up with our freight policies. 
If I am the future Maritime Administrator I will take a senior 
leadership role in working with all component government agencies and 
the Committee in carrying out our National Freight Policy.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                            Nicole R. Nason
CAFE
    The President said in his State of the Union Address, ``Americans 
are addicted to oil.'' One way to end this addiction is to increase 
Corporate Average Fuel Economy (CAFE) standards.
    Question 1. Do you personally support increasing fuel economy 
standards for cars?
    Answer. NHTSA intends to issue a new rulemaking CAFE standard for 
light trucks by April, 2006. Although this rulemaking does not affect 
cars, if I am confirmed, I would be interested in working with you and 
the other Members of the Committee regarding possible reforms to the 
passenger vehicle requirements that would result in greater fuel 
savings for cars.

    Question 3. NHTSA's proposal for increasing CAFE standards will 
have modest results. According to the Sierra Club, the proposal will 
only save six days worth of oil.
    Do you think that NHTSA's proposed fuel economy for light trucks is 
strong enough?
    Answer. The agency has been working diligently to have a new CAFE 
rulemaking for light trucks completed by April 2006. I have read 
several of the public comments regarding this open rulemaking, and I am 
aware of the concerns raised by environmental and safety advocacy 
groups. For example, some commenters stated that they believe the CAFE 
stringency levels are not high enough. If I am confirmed before this 
rulemaking is completed, I will direct the agency to explain to me how 
they addressed these comments in the proposed final rule to determine 
the strong benefits the rule will provide.

    Question 4. NHTSA has not taken an active role in CAFE standards 
for passenger cars.
    If you become NHTSA Administrator would you advocate for increasing 
CAFE standards for passenger cars?
    Answer. As I noted above, the light truck CAFE rule is due April 
2006. If I am confirmed as Administrator, I would be interested in 
working with you and the other Members of the Committee regarding 
possible reforms to the passenger vehicle requirements that would 
result in greater fuel economy.
Letter to DOT
    Question 5. In December, I wrote a letter with ten other Senators 
to Secretary Mineta concerning NHTSA's effort to weaken state authority 
to improve air quality and curb climate change emissions. This is part 
of NHTSA's CAFE rule that states that Federal law preempts California's 
rules. I asked that the language be withdrawn.
    Originally, I was told that my letter was being treated as part of 
a FOIA request that the State of California submitted. Then, after 
further discussions, I was told that the letter was not a FOIA request. 
I received a response from Secretary Mineta that my letter is being 
considered as part of the rulemaking and none of the issues in the 
letter were responded to. If you are confirmed as NHTSA Administrator, 
will you answer my letter and tell me and the other ten Senators 
whether the language will be withdrawn. And, if the answer is no, 
explain why.
    Answer. If confirmed as Administrator, my goal will be to answer 
all Congressional inquiries in a timely manner. As the Assistant 
Secretary, I am aware of how important it is to respond to you and all 
Members. I have also read several of the public comments to the 
proposed light truck CAFE rule and am aware of the numerous concerns 
raised by several different groups. I know that some commenters opposed 
the preemption language, and that such language would impact your home 
State of California. If confirmed before the final rule is issued, I 
will review the decision to include the preemption language in the 
proposal and respond within my legal authority to you and the other ten 
Senators.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                            Nicole R. Nason
    Question 1. I understand that studies have shown that regular 
inspection of automotive ride control systems every 12,000 miles, and 
replacement as necessary, greatly increases the operational safety of a 
vehicle. I also understand that most consumers are not aware of the 
dangers of operating a vehicle with worn shocks. Given that NHTSA 
operates an outstanding website, www.safercar.gov, providing safety 
information related to tires, air bags, and rollover, would you please 
share your thoughts on providing consumers with information on the need 
for regular undercar safety inspections that would include regular 
inspection and replacement of shocks as necessary.
    Answer. Cars that are well-maintained are not only safer, but more 
fuel efficient. If confirmed, I will use all available tools, including 
the website, to encourage consumers to have their vehicles inspected 
regularly and keep them well-maintained.

    Question 2. Can you please share your thoughts on the need for a 
``safety triangle'' inspection that checks critical interconnected 
system components that control vehicle steering, stopping, and 
stability?
    Answer. As noted above, I believe cars should be regularly 
maintained and, if confirmed, I will encourage owners to check vehicle 
components regularly for safety.

    Question 3. Assuming that a vehicle is only as strong as its 
weakest component and just one worn part could diminish control and 
compromise safety, would you agree that vehicle safety inspections 
should go beyond tires and brakes to include shocks, struts and 
springs, tie rod ends, ball joints and a host of other suspension and 
chassis points? If so, would you promote the inclusion of consumer 
information on the www.safercar.gov website promoting such inspection?
    Answer. If confirmed, I would use www.safercar.gov to provide 
consumers with all necessary information. I would also encourage them 
to have their cars inspected regularly.

    Question 4. With NHTSA promulgating a rule to require that newly-
manufactured vehicles be equipped with Electronic Stability Control, 
would you agree that the rule should allow for competition among 
various technologies?
    Answer. I believe NHTSA's rules whenever possible should be 
performance-based rather than design-based.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            Nicole R. Nason
    Question 1. Do you believe that the repeat offender program is 
effective (23 U.S.C. 164)? If not, what do you recommend in the way of 
legislative or administrative changes?
    Answer. I believe that repeat offenders are some of the greatest 
threats to America's roads. If confirmed, I intend to review the 
agency's authority carefully to ensure that NHTSA is doing all it can 
to keep repeat offenders off the roads. I also believe there were 
significant additional tools provided by the Congress in SAFETEA-LU and 
I will work closely with the States to implement the new grant 
programs.

    Question 2. If confirmed, what do you plan to do to stem the 17,000 
alcohol-related fatalities that occur annually?
    Answer. In 1979, my parents were hit by an alcohol-impaired driver. 
It was a bad crash, yet the driver was charged only with ``failure to 
yield.'' Although laws and societal attitudes have come a long way 
since then, there is much more work to be done. I believe that many 
tools included in SAFETEA-LU, such as the Alcohol-Impaired Driving 
Countermeasures grant program, can aid in the effort to reduce alcohol-
related fatalities. I also believe that a stronger focus on teen 
driving can help reduce these fatalities, as teens are among the most 
likely age group to drink and drive.

    Question 3. Do you feel it is NHTSA's role to advocate 
``sanction''-type legislation, which would encourage states to enact 
life-saving legislation by withholding Federal transportation funding 
until these laws are enacted?
    Answer. I believe that NHTSA should work in close partnership with 
the States and encourage legislatures to pass important life-saving 
legislation, such as primary belt laws. I believe that reducing highway 
fatalities requires a multi-step approach. I fully support all of the 
new programs and rulemakings created by SAFETEA-LU, but I also know 
that education plays an important role. If confirmed as Administrator, 
I will work closely with our State partners, to ensure that they are 
aware of the many new grant monies available to them to help reduce 
injuries and deaths on the roads.

    Question 4. Do you feel it is NHTSA's role to advocate 
``transfer''-type legislation, which would encourage states to enact 
life-saving legislation by mandating a transfer of Federal 
transportation construction funding to transportation safety programs 
in the absence of such enactments?
    Answer. As I noted above, I believe that NHTSA should work in close 
partnership with the States to encourage legislatures to pass critical 
safety legislation. I also believe that States should be able to have 
greater flexibility, to allow funds to flow to data-determined safety 
needs. If confirmed as Administrator, I will work closely with my 
colleagues in the Federal Highway Administration to ensure that Federal 
safety grant programs are as integrated as possible.

    Question 5. What do you feel NHTSA's role is encouraging states to 
pass life-saving legislation, including tougher teen driving laws, 
drunk driving laws, and motorcycle helmet usage laws?
    Answer. I believe that NHTSA has a critical role to play and should 
actively encourage, within all appropriate legal restrictions, the 
passage of significant life-saving legislation.

    Question 6. Do you support a national standard for motorcycle 
helmet usage?
    Answer. Many years ago, my father was the Lieutenant in command of 
the Motorcycle Highway Patrol and I grew up acutely aware of motorcycle 
safety issues. Every member of my family, including my father, believes 
that he is alive today because he was wearing his helmet when his 
motorcycle went down after a malfunction. He still has the helmet with 
the crack along the back where his head hit the road. I know that there 
are some who disagree, but I believe that motorcycle helmets save 
lives. I think that NHTSA should work closely with the States on this 
important issue and I fully support the Motorcycle Safety grants 
program contained in SAFETEA-LU.

    Question 7. Do you support a national standard for high-BAC 
drivers?
    Answer. Yes, I believe that high-BAC drivers are among the most 
dangerous.

    Question 8. If confirmed, what attention will you give National 
Transportation Safety Board recommendations?
    Answer. I have great respect for the National Transportation Safety 
Board and, if confirmed, I will give their recommendations serious 
consideration.

    Question 9. If confirmed, what percentage of your time and effort 
will be spent pursuing initiatives designed to encourage states to pass 
tougher safety laws?
    Answer. I believe one of the most important roles for the NHTSA 
Administrator is to make the States aware of the many new tools created 
by SAFETEA-LU. For example, the safety belt performance grants. While I 
cannot give a percentage, if I am confirmed, I will work diligently to 
encourage passage of important life-saving safety legislation.

    Question 10. If confirmed, how will you help prevent motorcycle 
rider deaths in the U.S.?
    Answer. As I noted above, I believe the Motorcycle Safety grants 
program passed by SAFETEA-LU can help save lives by encouraging such 
things as rider training courses, awareness programs, and reductions in 
alcohol or drug impaired driving. I will also work to continue to 
educate regarding the benefits of motorcycle helmets.

    Question 11. If incentive grants and active advocacy approaches by 
NHTSA do not prove effective in influencing states to enact important 
safety laws, such as those in areas you identified as priorities (teen 
driving, drunk driving, motorcycle safety), do you believe NHTSA should 
push for sanction-type legislation? If so, at what point should this 
change be made?
    Answer. I believe that the incentive grants and active education 
programs are already working, as evidenced by the several success 
stories just since the beginning of this year. States such as 
Mississippi and Alaska surprised many people and passed primary belt 
laws in the first few weeks of 2006. If confirmed, I will work to pass 
important safety-related laws, such as primary belt legislation, in all 
States.

    Question 12. What specific behavioral changes will you pursue in 
order to make meaningful advances in the number of drunk driving 
deaths?
    Answer. If confirmed, I will use the new grant monies provided by 
SAFETEA-LU to encourage states to have more frequent BAC testing, 
promote high visibility enforcement and increase the use of DWI courts.

    Question 13. What specific behavioral changes will you pursue in 
order to make meaningful advances in the number of motorcycle deaths?
    Answer. As I noted earlier, I believe a motorcycle helmet saved my 
father's life. If confirmed, NHTSA will pursue rider education and 
rider awareness programs. Also, I will work to encourage riders to wear 
protective clothing and use other devices to make themselves more 
visible to motorists.

    Question 14. In your opinion, why do you think President Bush 
nominated you for this position, given your admitted lack of direct 
experience with administering highway traffic safety programs on any 
level of government?
    Answer. The previous Administrators of National Highway Traffic 
Safety Administration have come from a variety of disciplines and had 
wide-ranging backgrounds and experiences. I believe the element that 
unites this disparate group of men and women is commitment and passion 
for the agency and its mission. I share that commitment, and believe it 
is the most important quality in any NHTSA Administrator.
    In addition, I am an attorney with several years experience as 
counsel for the House Judiciary Committee and I also managed two 
separate offices within the Federal Government at two different 
departments. Moreover, I spent the last three years at the Department 
of Transportation working to ensure that Secretary Mineta's safety 
priorities were contained in the final surface reauthorization 
legislative package.

    Question 15. In your opinion, why do you think President Bush and 
Secretary Mineta recommend you for this position, given your 
immediately prior work to oppose many of the safety requirements in the 
SAFETEA-LU legislation?
    Answer. As the Assistant Secretary for Governmental Affairs, I was 
the lead liaison for Secretary Mineta and the Department regarding the 
now passed SAFETEA-LU. I advocated on behalf of Secretary Mineta for 
all of his top safety priorities, especially the creation of the 
primary safety belt incentive grants program and the creation of a core 
safety program at the Federal Highway Administration.

    Question 16. Under SAFETEA-LU, NHTSA is tasked with completing many 
rulemakings which will inevitable cost the auto manufacturing industry. 
U.S. auto manufacturers are already in poor financial condition and are 
having problems meeting pension obligations. What actions will you take 
to ensure that NHTSA's forthcoming rules do not put the U.S. automakers 
at a competitive disadvantage--costing them even more U.S. jobs--or 
even have lasting financial impacts on them?
    Answer. While I am sensitive to the economic concerns of the 
industry, NHTSA's mission is to save lives and prevent injuries, 
notwithstanding the financial state of any individual automobile 
manufacturer. If confirmed, I will look for ways to improve safety 
without imposing unnecessary economic burdens.

    Question 17. If confirmed, what goals do you have for reforming 
Federal CAFE standards?
    Answer. As the Committee is aware, NHTSA administers the fuel 
economy standards and is currently working on a light truck CAFE rule. 
The agency intends to issue this new rule by April 2006. If confirmed, 
I look forward to working with you and other Members of the Committee 
regarding possible reforms to the vehicle standards that would result 
in greater fuel savings.

    Question 18. Do you believe the Federal Government should fund mass 
media costs associated with nationwide highway traffic safety law 
enforcement campaigns?
    Answer. Yes.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to Nicole R. Nason
    Question 1. NHTSA Budget: The NHTSA budget has not changed very 
much in the past few years. In fact, the budget has not even kept pace 
with inflation despite the fact that each year there are nearly 43,000 
motor vehicle fatalities and almost 3 million injuries at an annual 
cost of $230 billion. This is a public health epidemic by any measure. 
Motor vehicle deaths represent about 95 percent of all transportation 
fatalities, yet the NHTSA budget represents less than 1 percent of the 
entire DOT budget. As Administrator, what changes in agency priorities 
and budgeting will you make to ensure that the vehicle safety-related 
rulings enacted in the SAFETEA-LU legislation are completed on time?
    Answer. I believe the Administrator needs to be a strong advocate 
for her agency, and, if confirmed, I intend to work aggressively to 
ensure NHTSA has a robust budget. In addition, my priority would be to 
meet all of the deadlines mandated in SAFETEA-LU. If confirmed, I will 
make such staff or budget changes as may be necessary to ensure that 
the vehicle safety rulings are issued in a timely manner.

    Question 2. Fatality Reduction Goals: NHTSA has set a goal of 
achieving a 1.0 fatality rate per 100 million vehicle miles traveled 
(MVMT) by 2008, just 3 years from now. However, recent decreases in the 
fatality rate have only been incremental--it took five years to reduce 
the fatality rate by just one-tenth of one percent, from 1.58 in 1998 
to 1.48 in 2003. At the same time however, the actual number of highway 
and traffic fatalities has increased almost every year since 1992, 
reaching a total of 43,005 in 2002, the highest number of fatalities in 
over a decade. Given this recent history, is the goal of attaining a 
fatality rate of 1.0 death for every 100 MVMT by 2008 realistic? How 
does the agency intend to achieve a rate of 1.0 by 2008? Which specific 
policies and programs will contribute to achieving the goal? Which 
specific policies and programs will have to significantly improve their 
performance in the next 3 years, beyond their current contribution to 
saving lives, in order to achieve the fatality rate goal?
    Achieving a 1.0 fatality rate by 2008 is laudable but it will not 
be viewed as a great accomplishment if the total number of actual 
fatalities reaches or exceeds the recent high level of 43,000 deaths. 
Back in a 1999 major safety oversight report, the U.S. DOT Office of 
the Inspector General warned that safety goals based on rate reductions 
could result in lower rates of deaths per 100 MVMT, but allow more 
people to be killed each year. What is NHTSA doing to ensure that not 
just the fatality rate, but the actual number of traffic deaths 
decrease in the next 3 years? Why doesn't the agency also have a goal 
for reducing the total number of persons killed each year in highway 
traffic deaths? Why can't the agency set a goal to try to match, if not 
exceed, the most recent low number of deaths that was last achieved 
back in 1992, of 39,250 deaths each year?
    Answer. The Secretary has established a goal of achieving a 1.0 
fatality rate per 100 million vehicle miles traveled by 2008. I believe 
that this is a laudable goal, even as it remains extremely difficult to 
attain. The Secretary believes in setting the bar high, and if 
confirmed as Administrator, I would work to encourage the team to 
continue to reach for the highest level of achievement possible. Given 
that this Administration has three years left in the term, it will be 
necessary to pursue behavioral changes to see demonstrated improvement 
in the fatality rate. (In the longer term, I believe that NHTSA can 
lower fatalities through advancement in technologies, such as 
electronic stability control systems.) However, in the short-term, the 
agency will need to pursue aggressive improvements in the worst 
performing areas, such as teen driving, alcohol-related fatalities and 
motorcycles.
    I also believe it is critically important to pursue decreases in 
actual fatalities, not just in the rate of fatalities. (As the 
Committee is aware, actual fatalities have decreased from 2002.) As I 
noted in my opening statement, motor vehicle crashes are the leading 
cause of death for people in the United States ages 3-33 and I believe 
every life has value. If confirmed as Administrator, I will pursue 
strategies to focus especially on those areas with the greatest need. 
Increasing seatbelt use is the most effective way to save lives and I 
intend to continue the good work that NHTSA has been doing in this 
arena. The Secretary's goal in no way limits the agency; reductions in 
the fatality rate and in actual numbers of traffic deaths are both very 
important to me.

    Question 3. Safety Background: If confirmed, in the 3 years of your 
tenure as NHTSA Administrator approximately 126,000 people will die and 
nearly 9 million more will be injured, at a cost of almost $700 
billion. What are your top priorities to reduce this toll and how will 
you achieve them?
    Many previous NHTSA Administrators either had a substantive 
background in traffic safety or were public health professionals? What 
specific aspects in your professional background make you qualified to 
lead the Nation's traffic safety agency? Name three safety issues that 
you have promoted, or in which you have had a longstanding interest, 
and provide the dates (or time periods) when you took actions in 
pursuit of achieving those safety issues (goals).
    In light of the fact that the Department of Transportation opposed 
including many of the Title X vehicle safety-related rulings in 
SAFETEA-LU, and that as Assistant Secretary for Government Affairs it 
was your job to convey to Congress that opposition, what assurance do 
we have that you will carry out the safety rulemaking requirements as 
Congress intended?
    Answer. The previous Administrators of National Highway Traffic 
Safety Administration have come from a variety of disciplines and had 
wide-ranging backgrounds and experiences. Federal Aviation 
Administrator Marion Blakey came to NHTSA from the Office of Public 
Affairs and U.S. Department of Treasury Secretary John Snow was the 
Acting Assistant Secretary for Government Affairs prior to his role as 
Administrator. Among the others were doctors, a chemist, a coal 
industry regulator and an Army General. I believe the element that 
unites this disparate group of men and women is commitment and passion 
for the agency and its mission. I share that commitment, and believe it 
is the most important quality in any NHTSA Administrator.
    In addition, I am an attorney with several years experience as 
counsel for the House Judiciary Committee and I also managed two 
separate offices within the Federal Government at two different 
departments. Also, as I noted in my hearing, I was raised in a family 
focused on safety. My father was the police department Lieutenant in 
charge of the motorcycle division when I was a young teen, and he 
always emphasized personal responsibility and safety as a driver. He 
supervised the very first STOP-DWI unit in the police department and he 
was one of the first Motorcycle Safety Foundation certified 
instructors. Thanks to him, I have been interested in and personally 
committed to vehicle safety my entire life.
    Nearly twenty years after my father taught me how to drive, I am a 
parent myself. As the mother of two young girls, I am as concerned as 
any parent is about the crashworthiness of the vehicle that carries my 
children to and from their schools and playgroups. I believe that much 
more can be done in the areas of parent education, and I intend to 
focus on the use of car seats and booster seats if I am confirmed.
    Finally, I have spent the last three years at the Department of 
Transportation working to ensure that Secretary Mineta's safety 
priorities were contained in the final surface reauthorization 
legislative package. The centerpiece of that legislation was the 
creation of a primary safety belt incentive grant program, and I 
believe this grant program will make a difference and save lives. I 
fully intend to follow both the letter and spirit of the law in 
carrying out the safety rulemaking requirements of SAFETEA-LU if I am 
confirmed as NHTSA Administrator.

    Question 4. SAFETEA-LU Deadlines: It has been six months since 
SAFETEA-LU was enacted. What specific actions has the agency taken to 
implement and complete each of the vehicle safety-related rulings 
included in Title X, Part C of that legislation? At this juncture, can 
you assure the Committee that all the target dates in Title X, Part C 
will be met within the stated time limits without requesting any 
additional time?
    Answer. The agency has begun to take action on all of the vehicle 
safety-related rulemakings included in Title X, Part C of SAFETEA-LU. 
The agency is currently on schedule to complete the rulemakings in a 
timely manner. If confirmed, it is certainly my intention to ensure 
that all deadlines are met and that no additional time will be 
requested.

    Question 5. Roof Crush: Last August, just after the SAFETEA-LU 
legislation was enacted, NHTSA issued a proposed rule to amend the roof 
crush resistance safety standard. It has been argued that the proposal 
does not require very much improvement in vehicle roof strength for the 
overall light vehicle fleet since data shows that most vehicles on the 
road now--8 out of 10--would pass the proposed standard with no 
improvement in current levels of roof strength. In fact, although NHTSA 
identifies the at-risk population in roof crush crashes as 594 vehicle 
occupants the agency's proposed rule would only save between 13 and (at 
most) 44 lives. This proposal only prevents between 2 percent and 7 
percent of the fatalities that the agency identifies as resulting from 
roof crush. Why hasn't NHTSA proposed a better roof strength rule that 
will save more lives?
    In addition, the proposed rule does not meet the requirements of 
SAFETEA-LU in several respects: the rule does not require an upgrade on 
both the driver and passenger sides of each vehicle and it does not 
give any consideration to including available dynamic tests. Also, the 
rule does not cover rear seat passengers even though the agency 
recommends that parents put their children in the back seat. Given 
these shortcomings, does the existing proposed rule satisfy the 
legislative directive in all respects? Do you plan to issue another 
proposal that meets the requirements of SAFETEA-LU?
    Answer. The NPRM for the roof crush rulemaking was issued in 
August, 2005 and the comment period closed in November 2005. The agency 
is currently considering all the comments. I am certainly aware of the 
numerous concerns raised regarding this NPRM. If confirmed, I intend to 
look carefully at this proposal and review the numerous comments--in 
support and opposition--to the NPRM. I will also be sure to carefully 
review the requirements of SAFETEA-LU to ensure that the agency is 
complying with the law. If confirmed as Administrator, I will review 
the rule carefully and consider all appropriate actions, including the 
possibility of issuing a new proposal.

    Question 6. Rollover: In 2003, over 10,600 deaths occurred in 
rollover crashes. SAFETEA-LU requires rulemaking to establish 
performance criteria to reduce rollover consistent with stability 
enhancing technologies. Specifically, what performance criteria are 
under consideration and what countermeasures and technologies do you 
expect will be used to meet this safety standard? Will this rulemaking, 
like the agency's proposed rule on roof crush, result in only a 
marginal improvement in safety of between 2 percent and 7 percent? What 
is your goal for reducing the number of annual rollover crash deaths 
through the rulemaking required by SAFETEA-LU?
    As you know, rollover crashes are a major problem in heavy truck 
operations, especially for combination tractor-trailer rigs. What is 
NHTSA planning to do to improve stability and control in large trucks 
to build on its mid-1990s adoption of antilock braking systems (ABS) 
for medium and heavy trucks? Will you consider adopting a stability 
standard that will promote the use of Electronic Stability Control 
(ESC) systems for large commercial motor vehicles?
    Answer. NHTSA and the Department are working on the rollover 
prevention rule and, if confirmed, I intend to have that NPRM completed 
before the mandated October 1, 2006 date. Studies have indicated that 
electronic stability control systems have the potential to save 
thousands of lives a year. I am aware that NHTSA is working to develop 
a performance test that will ensure that all vehicles equipped with 
these systems deliver these safety benefits. While I don't have a 
specific numeric goal for rollover, if I am confirmed, I would like 
this to be an area where the agency significantly reduces deaths and 
injuries during my tenure.
    I am aware that NHTSA is currently conducting research into ESC 
systems for tractor-trailers. Once NHTSA completes its research, I will 
direct the agency to develop a follow-up plan.

    Question 7. Electronic Stability Control: One of the most effective 
technologies, if not the most effective technology, for rollover 
prevention is electronic stability control (ESC). A study by the 
Insurance Institute for Highway Safety has shown that ESC reduces fatal 
single-vehicle crashes by 56 percent and all single-vehicle crashes 
(both fatal and nonfatal) by 41 percent.
    Because of the lifesaving possibilities that this technology 
represents, Congress has mandated that NHTSA issue a rule to establish 
performance criteria to reduce rollovers consistent with this stability 
technology. While many automakers are already placing their own ESC 
systems in vehicles, there is no way to know if these systems are 
optimal for safety. As NHTSA Administrator, how will you ensure that 
the performance criteria will not simply accept or grandfather all ESC 
systems, regardless of effectiveness, that are now being installed in 
vehicles? How will you assure that the ESC system installed in vehicles 
produces the maximum amount of safety benefits for consumers and saves 
the most lives?
    Answer. I am aware that NHTSA has been conducting extensive 
research regarding performance characteristics used for electronic 
stability control systems. If confirmed, I will carefully review the 
safety benefits of any systems currently operating in vehicles, and I 
will ensure that the final rule will require significant safety 
benefits.

    Question 8. Ejection Mitigation: SAFETEA-LU also requires NHTSA to 
establish performance standards to reduce complete and partial ejection 
of vehicle occupants. Specifically, what performance criteria are under 
consideration and what countermeasures and technologies do you expect 
will be used to meet this safety standard?
    Answer. I know that currently NHTSA is conducting research 
regarding the occupant ejection prevention rule, although I am not 
aware of the specific performance test criteria that the agency may 
choose to use. If confirmed, I intend to have the final rule completed 
on or before the mandated October 1, 2009 date.

    Question 9. Door Locks: As part of the occupant ejection provision 
in SAFETEA-LU, NHTSA is required to complete rulemaking on a pending 
proposal relating to door locks. That proposed rule, however, appears 
to emphasize global harmonization more than it improves safety in the 
U.S. The rule only deals with only one very small part of the door 
latch problem, preventing failure of latches on the sliding side doors 
of vans. NHTSA began an effort to eliminate the early 1960s door latch 
design back in the early 1990s, but no action has been taken since then 
to propose an amended regulation. When do you plan to address door 
latch failures in a comprehensive way? Will you finally act to upgrade 
the lock and latch standard that has been shown for decades to lead to 
open vehicle doors resulting in hundreds of ejection fatalities?
    Answer. If confirmed as Administrator, I will evaluate the current 
door lock activity and determine what additional efforts may be needed 
to address the door lock latch problem.

    Question 10. Older Drivers and Occupants: Studies have pointed to 
the ``graying'' of America and the aging of the Baby Boom generation 
that all experts agree will have a great impact on many aspects of 
society, particularly in the area of public health and safety. 
Unfortunately, I don't see that NHTSA is preparing for this reality in 
terms of its vehicle safety standards. Nearly all occupant protection 
requirements, including safety belts and air bags were originally 
developed based on the ``average'' middle-age male prototype, and only 
recently has the agency included requirements for smaller females and 
children. There is still no crash test dummy that simulates what 
happens to older citizens, who may be frailer and at greater risk in a 
crash for injury and fractured bones than younger persons. In 
developing the Federal motor vehicle safety standards what is NHTSA 
doing to ensure that motor vehicles provide equal protection to our 
older citizens in the event of a crash?
    Answer. The aging of the Baby Boomers will certainly have a 
significant impact on driver population. If confirmed as Administrator, 
I will ask the agency to provide some recommendations regarding what 
should be done with respect to older drivers in a crash test, including 
consideration of a crash test dummy that may better simulate older 
driver injuries.

    Question 11. Pedestrian Safety: Research has found that when cars 
and light trucks strike pedestrians the severity of the pedestrian 
injuries is directly related to the design and energy-absorbing 
features of vehicle front-ends including bumpers, fenders, and hoods. A 
number of vehicle lines are already more ``impact-friendly'' 
specifically to protect pedestrians, and the European Economic 
Community (EEC) is prepared to issue a standard to make front ends of 
cars softer and more forgiving to protect pedestrians in collisions. In 
the early 1990s, NHTSA was developing a proposal to improve vehicle 
front-end protection for pedestrians but that rulemaking effort was 
terminated 15 years ago. What actions or regulations has NHTSA pursued 
in the last 5 years to improve the safety of pedestrians in collisions 
with cars and light trucks? What actions will NHTSA take in the next 2-
3 years to ensure that all vehicles sold in the U.S. have the same 
pedestrian-friendly safety design protections that are being used in 
some current production models?
    Answer. I am aware that NHTSA has been working with the 
international community regarding pedestrian safety. Agency staff have 
been participating through the United Nations to develop a global 
technical regulation for pedestrian protection. Although statistically 
there are greater pedestrian fatalities in Europe than in the United 
States, it is still an area where NHTSA needs to demonstrate more 
leadership to our world partners. If confirmed, the agency will 
continue this important work.

    Question 12. Passenger Vehicle and Bus Causation Studies: NHTSA is 
embarking on a Passenger Vehicle Crash Causation Study, as well as a 
Bus Crash Causation Study, modeled after the Large Truck Crash 
Causation Study (LTCCS). The LTCCS has been strongly criticized for its 
flawed study design by the Transportation Research Board (TRB), safety 
groups, and the Centers for Disease Control and Prevention (CDC) that 
reviewed the study design at the request of Congress. Among other 
issues, concerns raised about the LTCCS include criticisms that the 
study design collected and analyzed data without first formulating 
research hypotheses, has inadequate data sample size, does not use 
comparison or control groups to compare with the truck crashes that are 
investigated, concentrates on finding only a single cause or ``critical 
reason'' for each crash, and relies on subjective witness statements as 
its primary data source for why crashes occurred. How does NHTSA intend 
to accommodate the TRB and CDC findings and recommendations to avoid 
these mistakes in research design in the Bus and Passenger Vehicle 
Crash Causation studies? What specific changes are you making to the 
study design to avoid these problems?
    Answer. It is my understanding that the Bus Crash Causation study 
is being carried out in conjunction with the Federal Motor Carrier 
Safety Administration. With respect to both the Passenger Vehicle Crash 
Causation study and the Bus Crash Causation study, I am told that the 
NHTSA staff has taken into account the comments by the TRB and the CDC 
on the Large Truck Crash Causation study. If confirmed, I will review 
the issues raised by these groups.

    Question 13. NCAP: Last year, NHTSA considered how to change the 
frontal crash portion of the New Car Assessment Program (NCAP). Soon, 
the belted frontal crash test will be performed at 35 miles per hour, 
and be identical to the NCAP frontal crash test. In a recent report, 
the Government Accountability Office (GAO) found that NCAP is assigning 
4 or 5 stars to the great majority of light vehicles in its rollover, 
side impact, and frontal crash ratings tests, making it difficult for 
buyers to determine whether one vehicle is substantially different in 
safety than another in these major types of crashes. ``Vehicle Safety: 
Opportunities Exist to Enhance NHTSA's New Car Assessment Program,'' 
GAO-05-370 (April 2005). The GAO report emphasized that many vehicles 
receiving 4 or 5 star ratings under the NCAP test methods are often 
receiving lower ratings when a more demanding crash test is used by 
private safety organizations. The GAO also recommended that NHTSA 
explore adopting new types of crash tests and safety ratings in NCAP.
    While NCAP has been an important consumer information program the 
agency has not improved the frontal program in order to maintain its 
relevance and stay ahead of events. As recently as December 2005, the 
agency decided not to make ANY changes to frontal NCAP. Increasing the 
test speed was considered--but not adopted. Adding an offset frontal 
crash test was considered--but not adopted. Changing the way in which 
star ratings are awarded was considered--but not adopted. And adding 
new injury results was, again, considered--but not adopted. It seems 
that NHTSA, once a leader in pursuit of its safety mission has become 
intransigent to advancing safety. Where are the safety advances and 
creative ideas for frontal occupant protection for the next generation 
that Americans expect this agency to produce? How do you intend to 
reverse this situation both in terms of frontal NCAP specifically and 
the agency in general? What changes in NCAP will you implement to 
address the GAO report?
    Answer. I am concerned about the usefulness to consumers of NCAP 
information and believe that the GAO report should be reviewed 
carefully by the agency. I believe the program should allow NHTSA to 
make meaningful distinctions between the safety performances of 
vehicles, and I agree that NHTSA needs to consider possible changes to 
ensure the value of the program. If confirmed, I will direct NHTSA to 
do a complete review of the NCAP program and provide me with 
recommendations, including consideration of changes to the frontal 
test.

    Question 14. Vehicle Incompatibility: For more than ten years NHTSA 
has been aware of the problem of crash incompatibility between 
passenger vehicles, especially when light trucks strike cars. As more 
and more vehicles on the road are highly aggressive pick-up trucks and 
SUVs, tenuous, voluntary automaker programs appear to be a sorely 
inadequate response to this serious and growing source of highway 
deaths and injuries. This area was identified as one of NHTSA's four 
key program areas in priority plans several years ago. While the new 
side impact standard will help to buttress a vehicle's self-protection, 
little has been done to reduce the violence inflicted by the striking 
vehicle in a crash. What action do you intend to take, and in what time 
frame, to alleviate the problem and improve safety for occupants? What 
research and funding would be necessary for the agency to develop a 
more concrete plan to address incompatibility in crashes?
    Similarly, there is a chronic problem of the mismatch in size and 
mass between even the largest passenger vehicles and big trucks that 
usually results in the deaths or severe injury of many passenger 
vehicle occupants. As you know, although big trucks are only 3 to 4 
percent of registered vehicles, they are involved in 13 percent of all 
motor vehicle fatalities. When a big truck collides with a small 
vehicle, 98 percent of the people who die in these crashes are in the 
small passenger vehicles. NHTSA had a program in the 1990s to innovate 
``forgiving'' safety designs for big trucks, especially their front 
ends, so that the current rate of losses in passenger vehicles can be 
reduced. Why was that effort terminated? Are you planning to revive it? 
It seems that this is just as important a vehicle incompatibility 
safety problem as it is between small cars and big SUVs and pickup 
trucks.
    Answer. Vehicle compatibility is a challenging technical issue and, 
if confirmed, I will make it a top priority. I will ask the agency for 
a complete review of the compatibility work to date, to better 
understand what has been done and see what more remains to be 
completed. Early in my tenure, I will ask the agency for a 
comprehensive plan for moving forward that builds on what the agency 
has learned and see what next research and funding steps are most 
appropriate. Regarding large trucks, I am unfamiliar with the NHTSA 
program from the early 1990s to modify front-end designs of trucks. If 
confirmed, I will learn more about these efforts and determine what 
next steps should be taken regarding the serious heavy truck safety 
issue.

    Question 15. Crash Avoidance Technologies Research: A number of 
automakers are currently researching, developing and beginning to 
install the next generation of active safety devices in vehicles. 
Active safety systems include adaptive cruise control, lane departure 
warning systems, pre-crash warning systems and rear detection systems, 
as well as many other innovations.
    NHTSA must take the lead in encouraging these safety developments 
and assuring the devices help vehicle occupants avoid crashes. NHTSA 
also must conduct research to determine which active safety devices 
work best. Significantly, there are currently no performance standards 
to guide consumers and automakers towards optimal performance of these 
systems.
    As Administrator, how would you work to guarantee that NHTSA is 
ahead of the curve on these developing systems and what research and 
rulemaking priorities would you develop for the agency in these areas? 
How would you assure that new performance standards for these systems 
are introduced in a timely fashion? How do you plan to quantitatively 
measure the contribution to crash reduction, deaths, and injuries that 
can be made by increasingly automating part of the driving task or 
providing interactive information for the driver with highway features 
and traffic events?
    Answer. I agree that NHTSA must take the lead in encouraging 
innovative safety developments and promoting new technologies. I am 
aware that, in July 2005, NHTSA issued a Federal Register Notice 
soliciting information on its new initiative, the Advanced Crash 
Avoidance Technologies Program. This program will develop test 
procedures to evaluate the performance of selected new safety systems 
and perform the testing necessary to determine effectiveness. If 
confirmed, I will closely monitor this project to ensure its value.

    Question 16. Fuel Economy: In recent weeks, Ford announced a plan 
to cut up to 30,000 jobs and close 14 plants in North America by 2012. 
In November, General Motors announced a similar plan to cut 30,000 jobs 
and close 12 plants in North America by 2008. Both automakers are in 
dire financial straits and are quickly losing their market share to 
foreign automakers.
    A major reason for this loss of market share is that GM and Ford 
invested in SUVs and other fuel-guzzling vehicles, which turn around a 
fast and sizeable profit but do not sell well in these times of $2-$3 a 
gallon gas prices. Some foreign manufacturers invested in more fuel-
efficient vehicles, and have paved the way for a future of improved 
fuel economy with hybrid vehicles.
    As Administrator, what role do you plan to play in promoting fuel 
economy? What are your planned actions to encourage or require 
significantly light truck and passenger vehicle greater fuel economy?
    Answer. As the Committee is aware, NHTSA administers the fuel 
economy standards. If confirmed, I will work with the other department 
and administration officials who have responsibilities in this area. 
Specifically, I will work with the Department of Energy regarding fuel 
alternatives that may have an impact on fuel economy and with the 
Environmental Protection Agency regarding tests and publication of 
information.
    In addition, NHTSA is currently working on a light truck CAFE rule. 
The agency intends to issue a new rulemaking for CAFE standards for 
light trucks by April 2006. If confirmed, I look forward to working 
with the Committee to discuss possible reforms to the vehicle standards 
requirement.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                            Tyler D. Duvall
    Question 1. Mr. Duvall, according to projections the amount of 
freight expected to travel on our highways, railways, waterways, and 
airways is expected to double over the next 25 years. Currently, our 
infrastructure needs are exceeding our capacity. We have a driver 
shortage in trucks that is only expected to get worse with time. Our 
highways are more congested than ever. Our railways are operating at 
capacity, and our air traffic control systems are outdated and 
overtaxed. Transportation costs for all industries are up across the 
board. Even the recently passed highway bill, while an improvement, 
will not be enough to address our short term transportation needs. What 
is the Department's plan to address this coming infrastructure dilemma?
    Answer. The challenges confronting all U.S. transportation systems 
are substantial. Because the ownership, financial and institutional 
arrangements for each of the networks mentioned are unique, there is no 
single solution that can be applied broadly. The Department has focused 
substantial attention on the performance and capacity of the Nation's 
transportation infrastructure while recognizing that State and local 
governments own a vast majority of transportation assets. The recently 
enacted highway bill takes some positive steps in this regard. Over the 
next several years, there is an opportunity to more fully demonstrate 
successful approaches to reducing congestion and financing highway 
infrastructure. These demonstrations will help lay the groundwork and 
give context to an important policy discussion to take place in the 
next several years. Fundamental questions related to the future of 
Federal highway programs and the appropriate scope of Federal 
involvement in surface transportation need to be addressed.
    I look forward to working with your office as we look at these 
pressing issues.

    Question 2. What will your priorities be for the Department if you 
are confirmed?
    Answer. In addition to providing sound and timely advice to the 
Secretary on policy matters, I would like to focus the policy office 
more clearly on the two most pressing transportation challenges: 
congestion and safety. Successfully combating congestion will require 
that we do a better job prioritizing solutions based on effectiveness. 
Successfully reducing the toll of transportation fatalities and 
accidents will require (a) that we continually improve safety data and 
(b) that we target resources more strategically in accordance with that 
data.

    Question 3. My state is home to a very successful driver training 
school in Newport, Arkansas, that issues temporary Commercial Driver's 
Licenses. This program benefits many of the small and medium size 
trucking businesses in Arkansas. The question has arisen as to whether 
or not these temporary CDLs are valid in other states. What is FMCSA 
doing to clarify this situation? Does the Department have an overall 
policy to address the current driver shortage?
    Answer. Temporary CDLs may be used to operate the appropriate class 
of commercial motor vehicle anywhere in the United States. FMCSA does 
not anticipate taking compliance actions at this time so long as there 
are no safety implications. In the future, FMCSA plans to pursue a 
regulatory action to clarify the ``domicile'' issue.
    The Department's main policy focus to date with respect to the 
driver shortage has been to provide training grants and regulatory 
flexibility with respect to training (so long as no safety issues are 
implicated). This is a matter that merits broader attention within the 
Department.

    Question 4. What is the current role of the Office of Policy and 
the Assistant Secretary for Transportation Policy? Do you believe the 
Office of Policy has been an effective leader of transportation policy 
Department wide? What proposals emanating from the Office of Policy 
have become regulation or law in the past two years?
    Answer. The Office of Transportation Policy, under the Office of 
the Under Secretary for Policy, provides policy advice to the Secretary 
of Transportation and coordinates major Departmental policy 
initiatives. As the head of the Office of Transportation Policy, the 
Assistant Secretary for Transportation Policy oversees approximately 30 
transportation policy professionals with expertise in policy areas 
ranging from infrastructure, mobility, safety, freight and logistics, 
environment, energy and technology.
    In some areas, the Office of Policy has been quite effective at 
leading Departmental policy initiatives. The Office successfully 
coordinated development of the Administration's proposals and various 
policy statements related to the reauthorization of surface 
transportation programs. The Office has been a leader in encouraging 
the formation of public-private infrastructure projects, one of the 
fastest and most significant trends in U.S. transportation. The Office 
headed up the Department's participation in development of the 
President's GPS policies.
    The Office of Policy was integral in developing most of the 
Administration's proposals and policies in connection with the surface 
transportation reauthorization bill. The Office of Policy has also 
played an important role in assisting NHTSA develop light truck fuel 
economy rule proposals.

    Question 5. Searcy, Arkansas, is one of the fastest growing 
communities in Arkansas. In 1996, an Automated Service Observation 
System (ASOS) was installed to provide weather to the Searcy airport. 
This system is now outdated and in great need of repair, but from our 
conversations with the FAA, parts are no longer made for this type of 
system. In the meantime, Searcy struggles to keep the system 
operational.
    If Searcy loses the ASOS, they will lose capabilities essential to 
the airport and city's growing needs. We have been working with the FAA 
to address this problem, but can you give me your assurance, that if 
confirmed, you will continue to work with my office, the FAA, and the 
Searcy airport to address their problem?
    Answer. Yes, if confirmed, I would be pleased to work with your 
office, other offices in the Office of the Secretary and the FAA to 
address Searcy's problem. I understand that this is a very important 
issue to the community.

    Question 6. I am interested in any plans the FAA may be working on 
to co-locate air traffic control towers and TRACON facilities. Can you 
briefly address that and will you keep me informed on any plans the FAA 
may be working on toward those ends?
    Answer. Although this is not my area of expertise, I understand 
that it is the FAA's policy to consider relocating the TRACON whenever 
the construction of a new air traffic control tower is considered. This 
policy is pursued in order to improve efficiency without compromising 
safety. I will work with our Congressional affairs representatives to 
keep you informed of any relevant plans the FAA may be working on this 
regard.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                            Tyler D. Duvall
    Question 1. As Assistant Secretary for Transportation Policy, you 
will have considerable influence over the Department's Amtrak policy. 
In 2003, the President unveiled an Amtrak Reform Plan that called for 
states to cover fifty percent of Amtrak's operation and infrastructure 
costs and contract with private companies to run the service. Last 
fall, the Amtrak Board of Directors passed a resolution stating its 
intention to separate the Northeast Corridor from Amtrak and create a 
subsidiary that would take title of the infrastructure and 
responsibility for its maintenance.
    As the Acting Assistant Secretary for Transportation Policy, and 
before that the Deputy Assistant Secretary, to what degree were you 
involved in the development of the President's Amtrak reform plan?
    Answer. I did not have significant involvement in the development 
of the President's reform plan

    Question 2. Do you view this plan as a viable option for Amtrak's 
long term solvency?
    Answer. Many of the core principles articulated in the plan are 
sound. I believe the Federal Government should be looking aggressively 
for ways to increase the return (including social benefits and costs 
into the investment calculus) on its substantial passenger rail 
investment while also laying the groundwork for development of a system 
that better serves customers and expands travel choices in the future.

    Question 3. Do you believe that the states should absorb more of 
the costs of running the service?
    Answer. I believe that states must be important partners with the 
Federal Government in devising any Amtrak reforms. One of the long run 
objectives of any reform proposal should be to improve the financial 
self-sufficiency of the network by attracting more customers and 
targeting services more appropriately to the needs of those customers. 
If this objective is achieved, cost burdens for all levels of 
government should diminish over time, not increase.

    Question 4. Do you agree or disagree with the Board's decision to 
move forward with separating the Northeast Corridor infrastructure from 
Amtrak? If you agree, could you explain in detail the supposed benefits 
of this plan?
    Answer. I believe Amtrak's Board of Directors should be analyzing 
all business options that have the potential to improve performance. It 
remains to be seen if a decision to create a new Amtrak subsidiary will 
improve performance.
    I agree with giving the Board of Directors the right to make such 
management decisions. Whether the decision proves to be the correct one 
remains to be seen. Establishing clear business lines, adding 
accounting transparency and creating more management accountability for 
specific business segments are all standard corporate management 
concepts that have worked well for various companies in the past.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            Tyler D. Duvall
    Question 1. You stated that the capacity constraints on the 
transportation system are due to the strain caused by our vibrant 
economy--what role does outsourcing of work by U.S. firms to 
international locales play in the added transportation sector activity? 
Other than the transportation sector activity, what overall economic 
indicators would support your assessment of a ``vibrant economy''? Does 
the creation of U.S. jobs play a role in your transportation 
policymaking?
    Answer. While there has indeed been rapid growth in outsourcing, 
the overall level of outsourcing is still small relative to broader 
U.S. economic activity. As a result, outsourcing likely produces a 
relatively minor impact on U.S. transportation systems. The largest 
strains derive from (1) growth in population, employment and vehicle 
miles traveled in urban and suburban areas that have not seen similar 
increases in physical capacity or operational improvements and (2) 
rapid growth in domestic and international trade in goods and services.
    The U.S. economy completed its third year of strong expansion in 
2005. Most macroeconomic indicators continued to move in a positive 
direction. Real GDP growth was 3.5 percent and faster than any other 
major industrialized countries; unemployment fell from 5.2 percent to a 
historically low 4.7 percent; almost 2 million jobs were created; and 
household net worth reached a record level. In the past three months 
alone, job growth has averaged 225,000 a month. Average hourly earnings 
are now growing at a 3 percent year-over-year pace. A recent survey of 
economists calls for first quarter GDP growth in excess of 4 percent.
    I believe that an efficient and productive U.S. transportation 
system is a critical underpinning of continued U.S. job creation. The 
combined presence of the world's greatest transportation infrastructure 
and the world's most competitive private sector transportation service 
providers has created millions of jobs and provided enormous welfare 
benefits to our country.

    Question 2. What was your role in the formulation of the 
Administration's policy on Federal funding for Amtrak in FY06?
    Answer. I played little or no role in the formulation of the 
Administration's policy on Federal funding for Amtrak in FY06. The 
Assistant Secretary for Transportation Policy at the time was the 
office lead for intercity passenger rail policy matters.

    Question 3. From your previous statements, I take it you do not 
believe that intercity rail is a vital component of a balanced U.S. 
passenger transportation system. In your opinion, should any analysis 
for evaluating whether Federal support for intercity rail include an 
estimation of congestion, environmental, security/emergency 
preparedness, and other public benefits which are not readily nor 
easily quantifiable?
    Answer. As I have stated previously, I do in fact believe that 
intercity passenger rail can be a vital component of a balanced U.S. 
passenger transportation system if the funding and service framework 
can be significantly improved. Moreover, I do believe that it would be 
appropriate to account for external benefits such as those mentioned.

    Question 4. How will you provide better coordination between policy 
offices at individual agencies and the OST policy office?
    Answer. Establishing more regular communications and creating a 
sustainable process for the development of policy priorities are the 
two most important pre-conditional elements to successful coordination. 
In setting up these elements, it is imperative that goals and 
priorities be established. Without such goals and priorities, process 
itself will become the objective (as opposed to sound policymaking).

    Question 5. If confirmed, how will you address long-term freight 
capacity concerns? Will you include regular briefings for Congressional 
Committees of jurisdiction in any initiatives involving such efforts?
    Answer. The Department is currently working on the development of 
freight policies that will address long-term freight capacity concerns. 
I believe that freight issues are central to the Department's mission, 
and we are also working across the modes to ensure that these issues 
remain central to all future DOT's policymakers. If confirmed, I look 
forward to working with you on this issue.

    Question 6. I understand you came to work in the transportation 
sector four years ago. What experience do you have in public 
administration of the programs you will be responsible for proposing, 
which affect every state, district, territory and locality in our 
country?
    Answer. I did not have any specific experience in either the 
industry or as a policymaker prior to joining DOT at the beginning of 
2002. Growing up in the Washington, D.C. area, however, I have always 
been interested in the role that transportation plays in the economy 
and people's quality of life. I became even more intrigued with the 
economics of transportation in college. I came to recognize that the 
role of government policy makers is as critical in transportation as in 
any major field. As a corporate lawyer, although I did not specifically 
work on transportation industry transactions, I came to appreciate the 
manner in which major business decisions are executed in the U.S. I 
also obtained a better understanding of the centrality of financial 
markets and how those markets are used to allocate risk and 
opportunity. Because so much of the success of the U.S. transportation 
system depends both on these business decisions and these markets, my 
law firm experience has greatly enhanced my ability to work in the 
policy office. Finally, legal training in contracts law, property law, 
tort law, constitutional law and other core legal subject matters has 
proven invaluable.

    Question 7. You've stated congestion and highway safety are the top 
two significant challenges you see for DOT. Do you feel DOT has a role 
in ensuring the mobility needs of seniors are met? If so, what is that 
role, and if confirmed, how will you carry out such role?
    Answer. I believe DOT has a vital role to play with respect to 
senior mobility needs. There is no question that changing demographics 
in America will greatly impact our transportation system. I believe we 
need to assess many of our existing mobility regulations and programs 
to see whether they are presently designed to meet this challenge or 
whether reforms are necessary. A significant amount of work needs to be 
done to raise awareness both within the building and with outside 
stakeholders. I believe innovative approaches exist, but we must begin 
devising these approaches now.

                                  <all>

</pre></body></html>
